<html>
<title> - HIDDEN IN PLAIN SIGHT: UNDERSTANDING FEDERAL EFFORTS TO STOP HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  HIDDEN IN PLAIN SIGHT: UNDERSTANDING FEDERAL EFFORTS TO STOP HUMAN 
                              TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-76

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                   U.S. GOVERNMENT PUBLISHING OFFICE                    
34-447 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free.
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                  Hope Goins, Minority Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           J. Luis Correa, California
Will Hurd, Texas                     Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               Witnesses

Mr. John H. Hill, Assistant Secretary, Office of Partnership and 
  Engagement, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Steven W. Cagen, Special Agent in Charge, Denver Field 
  Office, Homeland Security Investigations, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. John Gore, Acting Assistant Attorney General, Civil Rights 
  Division, U.S. Department of Justice:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Ms. Michelle Demmert, Chief Justice, Central Council, Tlingit and 
  Haida Indian Tribes of Alaska:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27

                             For the Record

The Honorable Val Butler Demings, a Representative in Congress 
  From the State of Florida:
  Statement of Elisabeth Barna, Chief Operating Officer & 
    Executive Vice President, Industry Affairs, American Trucking 
    Associations.................................................    43

 
  HIDDEN IN PLAIN SIGHT: UNDERSTANDING FEDERAL EFFORTS TO STOP HUMAN 
                              TRAFFICKING

                              ----------                              


                     Wednesday, September 26, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:05 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
(Chairman of the subcommittee) presiding.
    Present: Representatives McSally, Hurd, Higgins, Bacon, 
Vela, and Demings.
    Also present: Representative McCaul.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to assess Federal and 
Tribal efforts to combat human trafficking in the United 
States.
    I now recognize myself for an opening statement.
    Human trafficking is a multi-billion-dollar industry, it 
enslaves approximately 25 million men, women, and children 
world-wide, through sexual exploitation, domestic servitude, 
and forced labor. It is important to understand there is no one 
face of human trafficking. Truth is that traffickers do not 
discriminate when it comes to their victims, victims can come 
from any background, of any age, like a teenage girl who ran 
away from home only to be beaten, drugged, and forced to walk 
the streets; the migrant worker who paid a smuggler to help him 
cross the border only to be forced into manual labor; or an 
elderly woman lured by the promise of work in America and 
forced to spend endless hours cleaning the mansion of her 
captors.
    These examples are all too common. To many Americans human 
trafficking may seem like a problem happening far away from 
home but sadly that is not the case. During a human trafficking 
roundtable I led in my district back in 2015 we heard from a 
sex trafficking survivor named Beth Jacobs.
    She explained to us just how easy it was to become a 
victim. She was drugged at a party at the age of 16 and then 
kidnapped and forced into prostitution. Over the course of 6 
years she was subjected to rapes, beatings, and forced 
commercial sex acts. I worked with Beth when I was serving on 
the Pima County Women's Commission and I have been inspired by 
her courage as a survivor of these unconscionable crimes.
    Beth is not alone unfortunately. Just last year the Human 
Trafficking Institute reported there were 783 active human 
trafficking cases in the U.S. Federal court system involving 
thousands of victims. Even more alarming is the fact that more 
than 55 percent of those cases involves sex trafficking of 
children. Yet as these horrific cases are uncovered in 
communities across the United States many people are still 
surprised at how close to home they actually are.
    Earlier this month 24 people were arrested in a human 
trafficking sting in the Phoenix area of my home State in 
Arizona. Some of the defendants ranging from age 21 to 80 are 
facing serious charges including aggravated luring, child sex 
trafficking, and money laundering.
    We all need to wake up because human trafficking is 
happening right here in our back yards and the victims of the 
tragic crimes are often hidden in plain sight.
    I call this hearing to shine a light on the heinous crime 
of human trafficking and highlight the work being done by our 
Federal agencies who partner with State, local, and Tribal 
governments, and law enforcement agencies to eradicate human 
trafficking from our streets, our local businesses, and our 
neighborhoods.
    I am proud of the steps the Department of Homeland Security 
and the Department of Justice and their Interagency Task Force 
partners are taking to combat all forms of human trafficking. 
At the Federal level the Human Smuggling and Trafficking Center 
serves as a clearinghouse for intelligence related to human 
trafficking, representatives from DHS, DOJ, State Department, 
side-by-side, providing law enforcement partners with timely 
information on the trends and pushing out actionable case 
intelligence to jump start and bolster criminal investigations.
    Homeland Security Investigations or HSI within ICE leads 
the Department of Homeland Security's effort on Human 
Trafficking Investigations and has accounted for 1,932 criminal 
arrests and 812 convictions in human trafficking cases in 2017 
alone.
    The DHS Blue Campaign which was formally authorized, signed 
into law, in February of this year, I was at the signing, 
thanks to the leadership of our Chairman McCaul, is a unified 
effort by the Department to conduct outreach and enhance 
awareness of trafficking and provide training and materials to 
those in the best position to identify the victims.
    The Blue Campaign works in collaboration with law 
enforcement, NGO's, and the private-sector stakeholders, to 
identify victims and train organizations on the indicators to 
look out for. DOJ plays a vital role in combating human 
trafficking and prosecuting those involved to the fullest 
extent of the law.
    Under the leadership of DOJ and in partnership with DHS and 
the State Department, the U.S. Government works closely with 
our Mexican counterparts to develop high-impact bilateral 
trafficking investigations. These multi-faceted prosecutions 
are aimed at dismantling international human trafficking 
networks that operate across the U.S.-Mexico border and are 
conducted through the U.S.-Mexico Bilateral Human Trafficking 
Enforcement Initiative. I look forward to hearing about that 
today.
    Congress has made it a priority in a bipartisan way to pass 
legislation that would enable law enforcement, prosecutors, and 
other stakeholders to fight human trafficking. To name a few 
over the last few years we have reallocated existing grants for 
human trafficking deterrence and victim support, made it a 
Federal crime to knowingly advertise for the commercial sex 
exploitation of minors and trafficking victims, enhance the 
ability of health care professionals to identify victims, and 
provided the financial industry more tools to detect and deter 
money laundering attached to human trafficking.
    Criminals engaged in trafficking range from amateur family-
run organizations to sophisticated transnational organized 
crime syndicates. It is critical that we prosecute trafficking 
offenders who victimize vulnerable populations. We must support 
efforts to raise awareness and educate those who work in law 
enforcement, at ports of entry, in health care, in child 
protective services, and elsewhere, to identify trafficking. We 
must also ensure that victims receive the care they need after 
they have been rescued.
    This is a complex and multifaceted problem. There are no 
quick or easy solutions but I do take comfort in knowing that 
the brave men and women within the Department of Homeland 
Security and DOJ are tracking these criminals down and saving 
these victims.
    I look forward to hearing from our Federal and Tribal 
witnesses today on their experiences in combating human 
trafficking and what more we have to do.
    So my hope with the help of your testimony, we will raise 
awareness on this issue and identify solutions that would have 
an impact on human trafficking throughout the Nation.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                           September 26, 2018
    Human trafficking is a multi-billion dollar industry that enslaves 
approximately 25 million men, women, and children world-wide through 
sexual exploitation, domestic servitude, and forced labor.
    It is important to understand that there is ``no one face'' of 
human trafficking.
    The truth is that traffickers do not discriminate when it comes to 
their victims. Victims can come from any background or be of any age, 
like a teenage girl who ran away from home, only to be beaten, drugged, 
and forced to walk the streets. The migrant worker, who paid a smuggler 
to help him cross the border, only to be forced into manual labor. Or 
an elderly woman, lured by the promise of work in America, and forced 
to spend endless hours cleaning the mansion of her captors.
    These examples are all too common.
    To many Americans, human trafficking may seem like a problem 
happening far away from home. Sadly, that is not the case.
    During a human trafficking roundtable I led back in 2015, we heard 
from sex trafficking survivor Beth Jacobs. She explained to us just how 
easy it was to fall victim to sex trafficking. She was drugged at a 
party at age 16, then kidnapped and forced into prostitution. Over the 
course of 6 years, she was subjected to rapes, beatings, and forced 
commercial sex acts. And just last year, the Human Trafficking 
Institute reported that there were 783 active human trafficking cases 
in the U.S. Federal court system, involving thousands of victims. Even 
more alarming, is the fact that more than 55 percent of those cases 
involved sex trafficking of children.
    Yet, as these horrific cases are uncovered in communities across 
the United States, many people are still surprised on how close to home 
they actually are.
    Earlier this month, 24 people were arrested in a human trafficking 
sting in the Phoenix area of my home State of Arizona. Some of the 
defendants, ranging in age from 21 to 80 years old, are facing serious 
charges including aggravated luring, child sex trafficking, and money 
laundering.
    Let me be very clear, human trafficking is happening right here in 
our backyards, and the victims of this tragic crime are often hidden in 
plain sight.
    I called this hearing today to shine a light on the heinous crime 
of human trafficking, and highlight the work being done by our Federal 
agencies who partner with State, local, and Tribal governments and law 
enforcement agencies to eradicate human trafficking from our streets, 
our local business, and our neighborhoods.
    I am proud of the steps that the Department of Homeland Security, 
the Department of Justice, and their interagency task force partners 
are taking to combat all forms of human trafficking.
    At the Federal level, the Human Smuggling and Trafficking Center 
serves as a clearinghouse for intelligence related to human 
trafficking. Representatives from DHS, DOJ, and the State Department 
sit side-by-side providing law enforcement partners with timely 
information on human trafficking trends, and pushing out actionable 
case intelligence to jumpstart and bolster on-going criminal 
investigations.
    Homeland Security Investigations (or HSI), within ICE, leads the 
Department of Homeland Security's effort on human trafficking 
investigations, and has accounted for 1,932 criminal arrests and 812 
convictions in human trafficking cases in 2017 alone.
    The DHS Blue Campaign, which was formally authorized in February of 
this year--thanks to the leadership of Chairman Mccaul--is a unified 
effort by the Department to conduct outreach to enhance awareness of 
trafficking and provide training and materials to those in the best 
position to identify trafficking victims.
    The Blue Campaign works in collaboration with law enforcement, NGO, 
and the private-sector stakeholders to identify victims, and trains 
organizations of indicators to look out for.
    The Department of Justice plays a vital role in combating human 
trafficking by prosecuting those involved to the fullest extent of the 
law.
    Under the leadership of the Department of Justice, and in 
partnership with DHS, and the State Department, the U.S. Government 
works closely with our Mexican counterparts to develop high-impact 
bilateral trafficking investigations.
    These multifaceted prosecutions are aimed at dismantling 
international human trafficking networks that operate across the U.S.-
Mexico border and are conducted through the U.S.-Mexico Bilateral Human 
Trafficking Enforcement Initiative.
    Congress has made it a priority to pass legislation that would 
enable law enforcement, prosecutors, and other stakeholders to fight 
human trafficking. To name a few, over the last few years we have 
reallocated existing grants for human trafficking deterrence and 
victims' support; made it a Federal crime to knowingly advertise for 
the commercial sex exploitation of minors and trafficking victims; 
enhanced the ability of health-care professionals to identify victims; 
and provided the financial industry more tools to detect and deter 
money laundering attached to human trafficking.
    Criminals engaged in human trafficking range from amateur family-
run organizations to sophisticated transnational organized crime 
syndicates.
    It's critical that we prosecute human trafficking offenders who 
victimize vulnerable populations. We must support efforts to raise 
awareness and educate those who work in law enforcement, at ports of 
entry, in health care, in child protective services, and elsewhere to 
identify trafficking. We must also ensure that victims receive the care 
they need after they've been rescued.
    This is a complex, and multifaceted problem. There are no quick or 
easy solutions, but I take comfort in knowing that the brave men and 
women within the Department of Homeland Security and the Department of 
Justice are tracking these criminals down, and saving these victims.
    I look forward to hearing from our Federal and Tribal witnesses on 
their experiences in combating human trafficking.
    It is my hope that with the help of your testimony, we will raise 
awareness of this issue and identify solutions that will have an impact 
on human trafficking throughout the Nation.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement he may have.
    Mr. Vela. Thank you, Chairwoman McSally and Chairman McCaul 
for holding this hearing today.
    Thank you to all of our witnesses for taking the time to be 
here with us.
    Human trafficking is one of the most profitable forms of 
transnational crime. The International Labor Organization 
estimates that forced labor generates annual profits of $150 
billion per year and claims more than 20 million victims world-
wide. Trafficking victims can be of any age, race, gender, or 
nationality, and are largely found in workplaces within the 
manufacturing, agriculture, hospitality, and domestic service 
industries.
    The Federal Government has a significant role to play in 
building capacity, resources, and synchronization among 
communities, local government, and international partners, 
however one area that I believe we are overlooking are Tribal 
lands. Last year the Government Accountability Office issued 2 
related reports about the number of investigated and prosecuted 
human trafficking cases that involved American Indians and 
Alaskan Native victims and that occurred on Tribal lands.
    The Departments of Justice, Interior, and Homeland Security 
each have some form of responsibility for investigating and 
prosecuting human trafficking crimes on Tribal lands. Forty-
nine of the 94 U.S. Attorneys' offices include Indian country 
within their jurisdiction, however 3 out of 4 of these Federal 
entities do not require their agents or attorneys to 
consistently collect or record the race or ethnicity, including 
Native American status, of victims in their cases. As a result, 
the total number of Federal human trafficking investigations 
and prosecutions that involve Native American victims is 
unknown.
    We also do not know how many Native American victims 
receive services under Federal grant programs intended to 
assist human trafficking victims for much the same reason. 
Grantees are not required to capture this information. This 
seems like a major gap and makes it difficult for us to 
understand the full scope of the problem.
    Despite our best efforts to encourage more interagency 
coordination, improve law enforcement training and resources 
for victims, and push out more awareness campaigns, we do not 
know how effective or helpful they may be if we don't fully 
understand the full scope of people affected by human 
trafficking or why they may be vulnerable. For this reason, I 
thank Judge Michelle Demmert for accepting our invitation to 
testify. She serves as the chief justice of the Supreme Court 
for the Tlingit and Haida Tribes of Alaska and she also serves 
as the co-chair of the National Congress of American Indians 
Task Force on Violence Against Women.
    I found the statistics you shared in your written testimony 
sobering and I am pleased that the committee will get the 
benefit of your views on this issue given your long experience 
fighting on behalf of American Indian and Alaska Native women 
and children who have been subjected to this and other forms of 
violence. I would like to hear from you and what more needs to 
be done to improve services to victims and to help bring 
traffickers to justice.
    As the Ranking Member of this subcommittee, I was glad to 
co-sponsor and support passage of the Department of Homeland 
Security's Blue Campaign Authorization Act of 2017. The Blue 
Campaign brings DHS components together with Federal, State, 
local law enforcement agencies, and private industry, to 
dismantle human trafficking networks across the country.
    I would like to hear from our DHS and DOJ witnesses today 
about how this and other Federal efforts under way assist 
Tribal law enforcement in addressing human trafficking on their 
lands. Federal programs and coordination are crucial in this 
fight but there is clearly work left to do to ensure that 
vulnerable people across this country and around the globe are 
protected.
    My hope is that we all walk away today with a more 
meaningful understanding of how else we need to partner to end 
human trafficking and incorporate it into the National 
conversation.
    Thank you again to our witnesses for joining us today. I 
yield back.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                           September 26, 2018
    Human trafficking is one of the most profitable forms of 
transnational crime. The International Labour Organization estimates 
that forced labor generates annual profits of $150 billion per year and 
claims more than 20 million victims world-wide.
    Trafficking victims can be of any age, race, gender, or nationality 
and are largely found in workplaces within the manufacturing, 
agriculture, hospitality, and domestic service industries.
    The Federal Government has a significant role to play in building 
capacity, resources, and synchronization among communities, local 
government, and international partners.
    However, one area that I believe we are overlooking are Tribal 
lands. Last year, the Government Accountability Office issued two 
related reports about the number of investigated and prosecuted human 
trafficking cases that involved American Indians and Alaska Natives 
victims and that occurred on Tribal lands. The findings left me 
puzzled.
    The Departments of Justice, Interior, and Homeland Security each 
have some form of responsibility for investigating and prosecuting 
human trafficking crimes on Tribal lands. Forty-nine of the 94 U.S. 
Attorney's Offices include Indian country within their jurisdiction. 
However, 3 out of 4 of these Federal entities do not require their 
agents or attorneys to consistently collect or record the race or 
ethnicity, including Native American status, of victims in their cases.
    As a result, the total number of Federal human trafficking 
investigations and prosecutions that involved Native American victims 
is unknown. We also don't know how many Native American victims 
received services under Federal grant programs intended to assist human 
trafficking victims for much the same reason--grantees are not required 
to capture this information.
    This seems like a major gap and makes it difficult for us to 
understand the full scope of the problem.
    Despite our best efforts to encourage more interagency 
coordination, improve law enforcement training and resources for 
victims, and push out more awareness campaigns, we won't know how 
effective or helpful they may be if we don't fully understand the full 
scope of people affected by human trafficking or why they may be 
vulnerable.
    For this reason, I thank Judge Michelle Demmert for accepting my 
invitation to testify today. She serves as the chief justice of the 
Supreme Court for the Tlingit and Haida Tribes of Alaska, and she also 
serves as the co-chair of the National Congress of American Indians 
Task Force on Violence Against Women.
    I found the statistics you shared in your written testimony 
sobering, and I am pleased that the committee will get the benefit of 
your views on this issue given your long experience fight on behalf of 
American Indian and Alaska Native women and children who have been 
subjected to this and other forms of violence. I would like to hear 
from you on what more needs to be done by Federal agencies to improve 
services to victims and to help bring traffickers to justice.
    As the Ranking Member of this subcommittee, I was glad to cosponsor 
and support passage of the Department of Homeland Security's Blue 
Campaign Authorization Act of 2017 late last year. The Blue Campaign 
brings DHS components together with Federal, State, local law 
enforcement agencies, private industry to dismantle human trafficking 
networks across the country.
    I would like to hear from our DHS and DOJ witnesses today about how 
this and other Federal efforts underway assist Tribal law enforcement 
in addressing human trafficking on their lands. Federal programs and 
coordination are crucial in this fight, but there is clearly a lot of 
work left to do to ensure that vulnerable people across the country and 
around the globe are protected.
    We also should be mindful of policies put in place by the 
administration that may end up increasing the likelihood of human 
trafficking and undermining our best efforts. I would note persistent 
reports of ``metering'' or the practice of wait-listing people seeking 
asylum who were turned away at land ports of entry due to capacity 
issues.
    By these accounts, people would rather risk spending several nights 
in a row on these bridges than to lose their opportunity to claim 
asylum. This leaves them incredibly vulnerable to traffickers who are 
more than willing to exploit them.
    DHS must be sure they are not creating a whole new set of problems 
because the administration wishes to carry out an inhumane policy that 
can deliberately interfere with people's right to claim asylum.
    My hope is that we all walk away today with a more meaningful 
understanding of how else we need to partner to end human trafficking 
and incorporate it into the National conversation.

    Ms. McSally. The gentleman yields back.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Texas, Mr. McCaul and the sponsor 
of the Blue Campaign legislation for any statement you may 
have.
    Mr. McCaul. Thank you, Madam Chairwoman and Ranking Member 
Vela.
    Human trafficking is a despicable multi-billion-dollar 
industry. It enslaves an estimated 25 million people world-wide 
including more than 300,000 people in my home State of Texas, 
80,000 of whom are minors. Many of these victims are sexually 
exploited or forced into slave labor and to some Americans 
trafficking may seem like an industry that only exists in 
poverty-stricken dictatorships or other poor parts of the world 
but sadly that is not the case, trafficking is an epidemic and 
it grows by the day.
    The Polaris Project reports that 1 in 20 men in the United 
States have purchased sex on-line. Traffickers are targeting 
our schools, and preying on our kids through social media and 
apps on their phones. This evil industry is a global enterprise 
and we must do more to fight it.
    I believe like every issue it starts with awareness. As a 
father of 5 children I continue to be personally struck by the 
horrifying stories of trafficking victims. Last month I visited 
Hope Rising, a rehabilitation program in Texas that matches 
trafficking victims with a foster family while they complete 
recovery therapy. It was a reminder that we need a proactive, 
not reactive approach to end this kind of exploitation and that 
is why many years ago I created the Internet Crimes against 
Children Unit when I was Deputy Attorney General for the State 
of Texas, under then-Attorney General John Cornyn. This has 
since led to the prosecution of hundreds--hundreds of on-line 
child predators.
    I have also worked closely with the National Center for 
Missing and Exploited Children which serves as a central source 
in the United States for information of child victims depicted 
in sexually exploitive images and videos.
    And earlier this year I stood in the Oval Office and 
watched the President signed the Blue Campaign Authorization 
Act into law. This was bipartisan legislation that I 
introduced. It provides resources to DHS to help deter, detect, 
and mitigate instances of human trafficking around the United 
States. It also protects victims and helps to raise public 
awareness of human trafficking threats throughout our 
communities.
    While I am proud of what we have accomplished I believe 
there is much more to be done. I am eager to continue this 
fight with anyone who wants to stop human trafficking and I 
think today's hearing will give us a chance to discuss 
innovative ways to continue our efforts.
    I want to thank the witnesses for being here and your work 
on this very important issue that is becoming as I said an 
epidemic. I have to say I have heard countless stories and not 
just inner-city stories but suburban, parents whose daughters 
and sons have been swept up into this industry and they can't 
get them back. Some people they don't know that exists in 
suburban America but it does and we want to do something about 
it on this committee.
    I want to thank the Chairwoman for holding this hearing. 
Thank you.
    I yield back.
    [The statement of Chairman McCaul follows:]
                  Statement of Chairman Michael McCaul
                           September 26, 2018
    Human trafficking is a despicable multi-billion dollar industry. It 
enslaves an estimated 25 million people world-wide, including more than 
300,000 people in my home State of Texas--80,000 of whom are minors.
    Many of these victims are sexually exploited or forced into slave 
labor. To some Americans, trafficking may seem like an industry that 
only exists in poverty-stricken dictatorships or other poor parts of 
the world. Sadly, that is not the case.
    Trafficking is an epidemic and it grows by the day. The Polaris 
Project reports that 1 in 20 men in the United States have purchased 
sex on-line.
    Traffickers are targeting our schools and preying on our kids 
through social media and apps on their phones. This evil industry is a 
global enterprise and we must do more to fight it.
    I believe, like every issue, it starts with awareness. As a father 
of five, I continue to be personally struck by the horrifying stories 
of trafficking victims.
    Last month I visited Hope Rising, a rehabilitation program in Texas 
that matches trafficking victims with a foster family while they 
complete recovery therapy. It was a reminder that we need a proactive, 
not a reactive approach to end this kind of exploitation.
    That is why I created the Internet Crimes Against Children Task 
Force when I was deputy attorney general for criminal justice in Texas 
under then-State attorney general, John Cornyn. This led to the 
prosecution of hundreds of on-line child predators.
    I have also worked closely with the National Center for Missing & 
Exploited Children (NCMEC), which serves as the central source in the 
United States for information of child victims depicted in sexually 
exploitative images and videos.
    And earlier this year, I stood in the Oval Office and watched 
President Trump sign the Blue Campaign Authorization Act into law.
    This was bipartisan legislation I introduced that provides 
resources to DHS to help deter, detect, and mitigate instances of human 
trafficking around the United States.
    It also protects victims and helps raise public awareness of human 
trafficking threats throughout our communities.
    While I am proud of what we have accomplished, there is more work 
to be done. And I am eager to continue this fight with anyone who wants 
to stop human trafficking.
    Today's hearing will give us a chance to discuss innovative ways to 
continue our efforts.
    I'd like to thank the witnesses for being here today. Your hard 
work and expertise will help us put the trafficking industry out of 
business once and for all.

    Ms. McSally. Thank you, Mr. Chairman.
    The gentleman yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 26, 2018
    According to U.S. Federal estimates, at any given moment there are 
25 million people around the world being trafficked, and Polaris 
estimates this number could be as high as 40 million people.
    These victims have been stripped of their freedom and are being 
forced or coerced into performing labor or commercial sex acts. And 
these victims could be anyone, all ages, all races, socioeconomic 
backgrounds, male, female, foreigners, or U.S. citizens.
    A victim could be from any country, State, or city, because human 
trafficking exists everywhere. It exists throughout the United States, 
in both cities and rural areas, in our own communities and 
Congressional districts, even though it may not be visible to those who 
are not trained to detect it.
    One thing everyone seems to agree on is that certain factors can 
make people more susceptible to being victimized by a trafficker.
    Being a youth, recent migration or relocation, substance abuse, 
mental health issues, being a runaway or homeless, or involvement with 
the child welfare system--these risk factors are often associated with 
people who are or have been trafficked.
    Traffickers take advantage of these vulnerabilities to control and 
exploit their victims.
    I was interested to read the testimony of one of our witnesses 
today, Chief Justice Demmert, because it pointed to an extremely high 
incidence of trafficking among the American Indian and Alaska Native 
populations. She cites a 2016 report from The National Institute for 
Justice that found that 84 percent of American Indian and Alaska Native 
women will experience intimate partner violence, sexual violence, or 
stalking in their lifetime, and 1 in 3 have experienced it in the past 
year.
    This is an extraordinarily high rate of violence focused on a 
specific population.
    Knowing this, particularly as Members of Congress, we have a duty 
to ask ourselves what we are going to do to address this problem. While 
statistics are part of the story, it does nothing to convey the impact 
of this violence.
    I look forward to hearing from Chief Justice Demmert today, to 
better understand the totality of circumstances facing our native 
peoples and to hear her comments and recommendations on how we can 
begin to tackle this problem.
    Many of our Federal departments work together to around the world 
to combat human trafficking, some of whom are represented here today.
    Each partner plays an important role in a unified effort to combat 
trafficking. From obtaining and sharing information, identifying and 
supporting victims, building investigations and cases against 
perpetrators and networks, and shutting down opportunities for 
traffickers to exploit more victims.
    I also hope to hear from our Federal witnesses about how they work 
with their State, local, Tribal, private-sector, and other non-
governmental partners.
    Growing our understanding of how these criminal enterprises 
operate, who their victims are, and how we can all better work together 
is integral to rooting out these operations and ending the enslavement 
of millions of people.
    I look forward to hearing about some of the coordinated work being 
accomplished today and what kind of resources or support is needed to 
further identify and eradicate the stain of human trafficking.
    Human trafficking is a detestable crime and Congress must do its 
part to provide the tools that are necessary to bring these crimes out 
of the shadows where trafficking thrives.

    Ms. McSally. We are pleased to have four distinguished 
witnesses before us today. Assistant Secretary John Hill, is 
responsible for the Department of Homeland Security Office of 
Partnership and Engagement or OPE. Is that how you say it or do 
you have an acronym, OPE or something? OK. OPE coordinates DHS 
outreach to State, local, Tribal, and territorial governments, 
and local law enforcement, the private sector, and colleges and 
universities.
    In 2014 then-Governor, Indiana Governor, Mike Pence 
appointed Mr. Hill as his deputy chief of staff for public 
affairs where he oversaw all of Indiana's Public Safety 
agencies. Mr. Hill has more than 40 years of experience in 
public service at the Federal and State level, welcome.
    Special Agent Steven Cagen, I pronounced that correctly? Is 
currently the special agent in charge for Homeland Security 
Investigations in ICE under the Department of Homeland 
Security, in Denver, Colorado and is responsible for leading 
criminal investigations conducted by 18 HSI offices in cities 
throughout Colorado, Montana, Utah, and Wyoming. As a temporary 
assignment Mr. Cagen held the position of acting director of 
the Human Smuggling and Trafficking Center which is an 
interagency fusion center and information clearinghouse focused 
on advancing and supporting efforts to combat human 
trafficking, with a nexus to the United States. Since beginning 
his career in 1988, he has worked across the country and abroad 
to combat drug and human trafficking, money laundering, and 
arms trafficking, just to name a few, welcome.
    Acting Assistant Attorney General John Gore oversees the 
Department of Justice's Civil Rights Division which also 
encompasses the Human Trafficking Prosecution Unit. Before 
joining the Department of Justice Mr. Gore was a partner in the 
Issues and Appeals practice at Jones Day in Washington, DC. His 
practice spans all phases of appellate and trial litigation and 
a broad range of substantive areas including voting rights, 
administrative law, antitrust, and products liability. Prior to 
entering private practice Mr. Gore clerked for the Honorable 
Bruce Selya on the United States Court of Appeals for the First 
Circuit. I appreciate you coming today since DOJ is not under 
our jurisdiction but this is a really important conversation to 
have cross agencies so thanks for being here.
    Finally, the Honorable Judge Demmert, did I say that 
correctly? No, tell me? Demmert, OK, Demmert, emphasis on the 
first syllable, Demmert is a current elected delegate for the 
Central Council Tlingit and Haida Tribes in Alaska. She has 
also the National Congress of American Indians Violence Against 
Women's Task Force co-chair. Throughout her career Judge 
Demmert has worked in various capacities of advancing domestic 
violence protections for women and children. She has 
significant Tribal court experience, having worked at various 
positions in the Northwest Intertribal Court System including 
chief judge and administrator, welcome.
    The Chair now recognizes Assistant Secretary Hill for 5 
minutes to testify.

   STATEMENT OF JOHN H. HILL, ASSISTANT SECRETARY, OFFICE OF 
    PARTNERSHIP AND ENGAGEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hill. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee thank you for the 
opportunity to appear today to discuss the Department of 
Homeland Security's awareness and outreach efforts to combat 
human trafficking.
    On behalf of Secretary Nielsen and the more than 230,000 
men and women of DHS, I thank Chairman McCaul and this 
committee for its continued dedication to this bipartisan issue 
including the passage of the Department of Homeland Security 
Blue Campaign Authorization Act which you folks referenced in 
your opening comments.
    Human trafficking is a heinous crime, traffickers use 
force, fraud, or coercion to compel their victims into labor or 
commercial sex. Sadly, during my 29 years of law enforcement 
experience I witnessed the devastating effects of people caught 
in such circumstances however I was never provided training in 
human trafficking and even now such training is desperately 
needed for more State and local law enforcement. DHS is working 
to provide that needed training.
    The Blue Campaign which was created in 2010 and is housed 
within the Office of Partnership and Engagement develops 
general awareness training and materials to increase detection 
of human trafficking and to identify victims for first 
responders, law enforcement, Governmental, non-Governmental, 
and private-sector entities.
    DHS works collaboratively with interagency partners to 
ensure that victims are protected and traffickers are brought 
to justice. For example, through the President's Interagency 
Task Force to monitor and combat trafficking in persons, this 
entity was created by the Trafficking Victims Protection Act of 
2000. DHS works with 15 Federal agencies responsible for 
coordinating the Federal Government's effort to combat 
trafficking in persons. Also, DHS works jointly with the U.S. 
Department of Transportation to provide human trafficking 
training and information to aviation personnel through the Blue 
Lightning Initiative which creates training tools that allow 
airline personnel to identify potential human trafficking 
situations and to report their suspicions to law enforcement. 
More than 100,000 aviation industry employees have been trained 
through this effort.
    The Justice for Victims of Trafficking Act of 2015 contains 
provisions mandating the DHS implement human trafficking 
training for relevant department personnel. Of the identified 
DHS employees over 133,000 have been trained to date.
    In 2018 the Blue Campaign launched a new Human Trafficking 
and Native Communities Scenario Video by engaging with Native 
American survivors of trafficking. The video depicts what human 
trafficking can look like in 80 communities including 
recruiting tactics used by traffickers. Additionally, the Blue 
Campaign strives to provide culturally relevant information to 
Tribal communities. This effort included a visit in August 2017 
with our team and they collaborated on a number of training and 
education efforts with Alaska Human Trafficking Working Group 
as well as the mayor of Anchorage.
    Also, this year the Blue Campaign began leveraging Social 
Media and has secured more than 46,000 Twitter account 
followers. We implemented a digital advertising strategy with 
over 830,000 visits to our Blue Campaign website afterwards and 
4.5 million social media interactions. The Blue Campaign 
recognizes that these and other awareness efforts play a vital 
role in ensuring the public is able to recognize the critical 
information that is important to law enforcement for 
investigation and hopefully the prosecution of traffickers.
    Again, thank you for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Hill follows:]
                   Prepared Statement of John H. Hill
                           September 26, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear today to 
discuss the Department of Homeland Security's (DHS) efforts to combat 
human trafficking, and the risk it poses to victims and the National 
security of the United States. I am here today to discuss the 
Department's Blue Campaign and the importance of its awareness and 
outreach efforts to combat human trafficking. On behalf of the 
Secretary and the more than 230,000 men and women of DHS, I thank this 
committee for its continued dedication to this issue, including the 
passage of the Blue Campaign Authorization Act, which was signed into 
law by President Trump on February 14, 2018.
    Human trafficking is a heinous crime. Traffickers use force, fraud, 
or coercion to compel their victims into labor or commercial sex. Human 
trafficking is an exploitation-based crime and movement of the victim 
is not required, unlike with migrant smuggling. Individuals may be 
considered trafficking victims regardless of whether they were born 
into a state of servitude, were transported to the exploitative 
situation, previously consented to work for a trafficker, or 
participated in a crime as a direct result of being subjected to human 
trafficking. Victims of human trafficking have the potential to be 
exploited in their own communities within the United States. This is 
why combating human trafficking continues to be a priority for the 
Department.
    Through the Blue Campaign and on-going efforts of many DHS 
components, DHS raises public awareness about trafficking in persons, 
leveraging partnerships to educate the public to recognize human 
trafficking, and report suspected instances. The Blue Campaign works 
closely with U.S. Immigration and Customs Enforcement (ICE), U.S. 
Customs and Border Protection (CBP), U.S. Citizenship and Immigration 
Services (USCIS), the Federal Law Enforcement Training Centers (FLETC), 
and other DHS components, to create general awareness training and 
materials for law enforcement and others to increase detection of human 
trafficking, and to identify victims. Working in collaboration with 
first responders, Governmental, non-Governmental, and private-sector 
organizations, the Blue Campaign magnifies this important, National 
public outreach.
    Combating and preventing trafficking in persons begins with 
understanding the threat. This is why the mission of the Blue Campaign 
is so vital.
                             blue campaign
    The Blue Campaign was created by DHS in 2010 as a National 
awareness campaign to: (1) Educate the public, law enforcement, and 
other institutions on human trafficking in the United States; and (2) 
to increase understanding of the indicators of human trafficking, and 
to appropriately recognize and respond to possible cases of human 
trafficking. Housed in the DHS Office of Partnership and Engagement 
(OPE), the Blue Campaign works to facilitate information sharing across 
the Department in order to support and enhance our on-going work to 
fight modern-day slavery.
    The Blue Campaign has leveraged existing OPE partnerships with 
other Federal entities, the private sector, and State/local/Tribal/
territorial authorities to maximize National public engagement on anti-
human trafficking efforts. The Blue Campaign is well-positioned to 
speak to the Department's commitment to anti-human trafficking efforts, 
provide consistent, timely, and accurate information to the general 
public, and evaluate the impact and effectiveness of its awareness 
products.
    President Trump signed the Blue Campaign Authorization Act into law 
on February 14, 2018, officially codifying the program within the 
Department. The authorization allows the program to mature by 
solidifying Blue Campaign objectives, including awareness training for 
Department personnel and other Federal, State, Tribal, territorial, and 
law enforcement officials (as appropriate), and supporting its ability 
to leverage partnerships with State and local Governmental, non-
Governmental, and private-sector organizations to raise public 
awareness of human trafficking.\1\ The multi-faceted program includes 
oversight of the Department's anti-trafficking interagency engagement, 
employee and external training course development, public awareness 
portfolios, and external outreach.
---------------------------------------------------------------------------
    \1\ H.R. 4708 ``Department of Homeland Security Blue Campaign 
Authorization Act''.
---------------------------------------------------------------------------
                         interagency engagement
    As part of the President's Interagency Task Force to Monitor and 
Combat Trafficking in Persons (PITF), which is a Cabinet-level entity 
created by the Trafficking Victims Protection Reauthorization Act of 
2000, DHS works collaboratively with its Federal counterparts to ensure 
victims are protected and traffickers are brought to justice. 
Specifically, the Blue Campaign works closely with 15 agencies across 
the Federal Government responsible for coordinating U.S. Government-
wide efforts to combat trafficking in persons. As the Blue Campaign 
chair, I represent DHS on the Senior Policy Operating Group (SPOG), 
established by the Trafficking Victims Protection Reauthorization Act 
in 2003. The SPOG consists of senior officials designated as 
representatives of the PITF agencies \2\ and works to ensure a whole-
of-Government approach to address all aspects of human trafficking.
---------------------------------------------------------------------------
    \2\ The President's Interagency TaskForce to Monitor and Combat 
Trafficking in Persons (PITF) is a Cabinet-level entity created by the 
Trafficking Victims Protection Act (TVPA) of 2000, which consists of 
some 15 agencies across the Federal Government responsible for 
coordinating U.S. Government-wide efforts to combat trafficking in 
persons--https://www.state.gov/j/tip/response/usg/index.htm.
---------------------------------------------------------------------------
    DHS works jointly with the U.S. Department of Transportation (DOT) 
to provide human trafficking training and information to aviation 
personnel through the Blue Lightning Initiative (BLI). BLI, led by CBP 
and DOT, is an element of the Blue Campaign. The BLI creates training 
tools that allow airline personnel to identify potential human 
trafficking situations and to report their suspicions to law 
enforcement. To date, more than 100,000 airline personnel in the 
aviation industry have been trained through BLI, and actionable tips 
continue to be reported to law enforcement.\3\
---------------------------------------------------------------------------
    \3\ The ``FAA Extension, Safety, and Security Act of 2016,'' signed 
by the President on July 15, 2016, requires air carriers to provide 
initial and annual flight attendant training regarding recognizing and 
responding to potential human trafficking victims. https://www.cbp.gov/
border-security/human-trafficking/blue-lightning.
---------------------------------------------------------------------------
    Last, the Blue Campaign frequently collaborates with other Federal 
agencies for public awareness opportunities, such as the Department of 
Labor engaging in a recent social media engagement, and the Department 
of Health and Human Services in resource sharing (photographs) and a 
Blue Campaign-facilitated panel event.
                           employee training
    The Justice for Victims of Trafficking Act of 2015 (JVTA) contains 
provisions mandating that DHS implement human trafficking training for 
relevant personnel to identify human trafficking. The JVTA requires 
that the Department train and periodically retrain relevant 
Transportation Security Administration (TSA), CBP, and other Department 
personnel that the Secretary considers appropriate, with respect to how 
to effectively deter, detect, and disrupt human trafficking, and, where 
appropriate, interdict a suspected perpetrator of human trafficking.\4\
---------------------------------------------------------------------------
    \4\ Section 902(a) of the Justice for Victims of Trafficking Act of 
2015 (JVTA) relates to the training of Department of Homeland Security 
personnel to identify human trafficking.
---------------------------------------------------------------------------
    The Secretary determined that training of DHS personnel on human 
trafficking is critical to the Department's anti-human trafficking 
efforts. Therefore, the Secretary has determined that, in addition to 
TSA and CBP, certain employees of all operational components, 
particularly those employees in law enforcement and with public-facing 
roles, should be required to receive human trafficking training and 
periodic retraining pursuant to the JVTA. Each component is responsible 
for identifying relevant employees who should receive this training, in 
consultation with the DHS Blue Campaign. Of the identified DHS 
employees, over 100,000 have completed human trafficking training.
    Pursuant to the JVTA, training is accomplished through in-class or 
virtual learning capabilities, and includes training that is most 
appropriate for a particular location or environment in which the 
personnel receiving such training perform their official duties.
                           external training
    The Blue Campaign and DHS components, such as FLETC, ICE, and 
USCIS, regularly provide training to State, local, territorial, and 
Tribal law enforcement communities, and other organizations throughout 
the United States and abroad. The Blue Campaign focuses on awareness 
training whereas the operational components, such as ICE Homeland 
Security Investigations (HSI), provide training specific to 
investigations.
    The Blue Campaign has worked to enhance awareness and training for 
different groups likely to encounter trafficking victims, including law 
enforcement, industry, and Government employees. In conjunction with 
FLETC, Blue Campaign works to produce educational, scenario videos that 
depict indicators of human trafficking. DHS also works closely with 
survivors of human trafficking when developing these videos.
    In 2018, the Blue Campaign launched a new Human Trafficking and 
Native Communities video. This video depicts what human trafficking can 
look like in Native communities, including recruiting tactics used by 
traffickers. The video ends with a comprehensive overview of how to 
recognize and report human trafficking.\5\ Through its efforts to 
engage survivors of trafficking, the Blue Campaign has prioritized 
working with Native American and Native Alaskan communities to provide 
culturally relevant information on the risks of human trafficking.
---------------------------------------------------------------------------
    \5\ Blue Campaign scenario videos are located within the resource 
section on the campaign webpage https://www.dhs.gov/blue-campaign/
videos.
---------------------------------------------------------------------------
    Additionally, the Blue Campaign conducted two webinars for law 
enforcement in fiscal year 2018, one addressing the unique challenges 
to combating human trafficking in Native communities, presented by 
FLETC and a human trafficking survivor, and one covering trauma-
informed interview techniques, presented by FLETC and ICE HSI. A 
combined 82 law enforcement professionals attended the webinars. This 
was a testbed for our new law enforcement virtual engagement and it was 
met with positive feedback and determined successful.
                       public awareness portfolio
    Beginning in fiscal year 2018, the Blue Campaign started to 
leverage social media as a platform to engage the general public. Since 
its launch in January 2018, the Blue Campaign's Twitter account has 
secured more than 46,000 followers. Subsequent social media engagements 
have resulted in constructive information sharing with corporate 
partners, such as Amtrak and Delta Airlines. The Blue Campaign 
continues to host National awareness events, such as its annual ``Wear 
Blue Day'' on National Human Trafficking Awareness Day (January 11). 
``Wear Blue Day'' encourages the American public to wear blue, 
signifying awareness and commitment to ending human trafficking.
    Moreover, the Blue Campaign implements a robust annual advertising 
strategy, to include digital advertising. Results have increased views 
to valuable human trafficking information with over 830,000 visits to 
the Blue Campaign website, and 4.5 million social media interactions. 
Additionally, Blue Campaign secures out-of-home advertising in 
geographic locations surrounding large events. This includes ad 
placements in Minneapolis, Minnesota during the 2018 Super Bowl, 
obtaining 9.2 million impressions. Public Service Announcements (PSA) 
are also a part of the Blue Campaign's efforts to call attention to 
this issue. PSAs are a useful tool to emphasize key National security 
and safety issues, and drive a call to action, directing the public to 
appropriate reporting mechanisms. In 2018, the Campaign prioritized 
forced labor as a focus area to generate increased responsiveness. The 
Campaign created a PSA, ``Neighborhood Watch,'' which in 6 months, was 
placed almost 30,000 times and obtained more than 689 million 
impressions.
    Moving forward, the Blue Campaign will continue to provide and grow 
its quality public awareness services. The Campaign will assess 
advertising and outreach strategies to ensure effectiveness and 
innovation remain at the forefront of shedding light on this important 
National safety issue.
                   public awareness campaign efficacy
    It is difficult to measure the efficacy of a public awareness 
campaign, especially one addressing a historically underreported and 
hidden crime. By arming the public and front-line employees across 
various industries with information about how to recognize and report 
human trafficking, Blue Campaign is creating eyes and ears across the 
country on the lookout for signs of human trafficking and giving 
individuals the resources to call the appropriate authorities or get 
help. By growing Blue Campaign's social media presence in 2018, DHS has 
developed communication channels that deliver nearly daily messages 
about human trafficking.
    The Blue Campaign also actively works to engage survivor voices in 
its work. As a result of resources provided by the Department of 
Justice's Office for Victims of Crime, when developing new public 
awareness resources, the Blue Campaign was able to secure survivor 
consultants from the National Survivor Network and U.S. Advisory 
Council on Human Trafficking to provide input on the accuracy of 
imagery and effectiveness of messages. Survivors have consulted on Blue 
Campaign's most recent public service announcement, ``Neighborhood 
Watch,'' and public awareness and victim self-identification posters.
    Additionally, the Blue Campaign conducted an advertising saturation 
exercise in Reno, Nevada from May-July 2018 that resulted in 8 calls to 
the National Human Trafficking Hotline.\6\ A digital and out-of-home 
(billboards, baggage claim signage, scoreboard signage, and taxi 
toppers) strategy was created to maximize public awareness and drive 
calls to the National Human Trafficking Hotline in the geographic area. 
Digital click-to-call ads were used to track when a direct connection 
was made between a Blue Campaign effort and a potentially viable call 
that could have helped a victim of human trafficking connect to needed 
assistance. These call-only ads appear in search results on mobile 
devices, with the goal to get a user to click the phone number 
displayed in the ad.
---------------------------------------------------------------------------
    \6\ The Blue Campaign advertising saturation exercise in Reno, 
Nevada was conducted in conjunction with State/local stakeholders and 
the National Human Trafficking Hotline https://
humantraffickinghotline.org/.
---------------------------------------------------------------------------
                           external outreach
    Outreach and partnerships are essential parts of the Blue 
Campaign's efforts to ensure interested organizations have the 
necessary tools to bring awareness to the crime of human trafficking. 
Many organizations are interested in bringing awareness to their 
stakeholders in an effort to combat human trafficking in their 
industry. Partnerships increased in the last year with a wide variety 
of organizations, including a State-wide partnership with the State of 
Nevada, Nevada Department of Motor Vehicles, Asian American Hotel 
Owners Association, and Allied Universal Security.
    The Campaign receives many relevant inquiries to the Blue Campaign 
inbox, but also conducts proactive outreach to organizations that could 
have a substantial impact on raising awareness within its industry or 
with the public.
    As a Blue Campaign partner, organizations have access to the 
Campaign support team, training and resources, speaking and event 
opportunities (both hosted by the Blue Campaign, and to have Blue 
Campaign personnel present at partner-hosted events), co-branded Blue 
Campaign materials, human trafficking awareness materials, and receive 
the Blue Campaign e-newsletter.
    While formal partnerships assist the Blue Campaign with sharing 
critical information in the fight to end human trafficking, they are 
not necessary to access valuable resources available on the Blue 
Campaign website. The Blue Campaign produces a wide variety of human 
trafficking awareness materials including toolkits, posters, indicator 
cards, and more. The Blue Campaign's comprehensive portfolio of all 
publications and materials is available for download and print from the 
Blue Campaign at no cost.
                               conclusion
    The Blue Campaign recognizes that awareness efforts play a vital 
role in ensuring the public is able to recognize the crime and provide 
valuable information to law enforcement. The Blue Campaign is becoming 
a leading voice in socializing the indicators of human trafficking so 
that the public can recognize and report suspected incidents of the 
crime, ensuring victims know how to connect with the resources they 
need to escape their trafficking situation and begin to rebuild their 
lives.
    Again, thank you for this opportunity to testify today on this 
important issue. I look forward to answering your questions.

    Ms. McSally. Thank you.
    The Chair now recognizes Special Agent Cagen for 5 minutes.

 STATEMENT OF STEVEN W. CAGEN, SPECIAL AGENT IN CHARGE, DENVER 
FIELD OFFICE, HOMELAND SECURITY INVESTIGATIONS, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Cagen. Morning Chairwoman McSally, Chairman McCaul, and 
Ranking Member Vela and distinguished Members of the committee. 
It is an honor to represent HSI, Homeland Security 
Investigations.
    As one of the 26 special agents in charge I can attest to 
the HSI's commitment to identifying and assisting victims and 
bringing traffickers to justice.
    For decades now HSI has been seeing the same types of cases 
involving agriculture, construction, domestic work, 
restaurants, massage parlors, essentially jobs with low pay and 
few legal protections in an underground economy and in a 
service industry. Many of these workers may be visible to us 
but what we can't see is the fear, debt bondage, psychological 
coercion, threats, and harms that their traffickers inflict. 
They are indeed hidden in plain sight.
    When I led HSI's human trafficking effort last year I 
learned about an investigation out of Jacksonville, Florida 
that has truly stuck with me to today. In 2012 Estella Clark 
went to her native Mexico where she met a young woman who 
agreed to be a pregnancy surrogate, medically supervised, in 
exchange for thousands of dollars. Clark had the victim 
smuggled across the border and undertook insemination, not with 
a doctor, at home with syringes. When there was no pregnancy, 
she started to force the victim into unwanted sex with 
strangers.
    Over a period of 2 years Clark threatened to harm the 
victim's family in Mexico, forced her to engage in domestic 
work, became physically abusive, and fed her beans while making 
her sleep on the cold floor.
    I chose this case to illustrate a few things. First some 
cases like Clark involves traffickers recruiting and smuggling 
victims into the United States and where they are compelled 
into labor or sex, commercial sex, however there are many cases 
where the victims arrive on visas or are already in the United 
States before they are trafficked. There are also cases 
involving U.S. citizens.
    Second the Clark case demonstrated that traffickers and 
victims can be of any age, ethnicity, race, gender identity, 
immigration status, socio-economic level. Traffickers can be 
relatives, friends, gang members, members of transnational 
criminal organizations, they can operate alone or they can 
operate in groups. They can actually be the couple next door. 
They are all driven by greed.
    Third, I am pleased to report the victim received services 
along with continued presence allowing her to remain in the 
United States with work authorization to facilitate the 
investigation and prosecution of her trafficker.
    We have seen time and time again the law enforcement 
officers who work with victim assistance personnel have more 
stable victim witnesses and stronger investigations. Clark was 
sentenced this year to 7 years in prison for forced labor.
    HSI participates in more than 120 human trafficking task 
forces consisting of Federal, State, local, and Tribal law 
enforcement as well as victim service providers. On average HSI 
conducts 1,000 human trafficking investigations annually, 
identifies and assists hundreds of victims, conducts extensive 
local outreach and training, and generates leads and trains 
foreign law enforcement partners.
    Our human trafficking mission is two-fold. No. 1, we 
proactively identify cross-border trafficking organizations and 
minimize the risk they pose to National security and public 
safety.
    No. 2 we employ a victim-centered approach which has equal 
value on the identification and stabilization of victims and on 
investigation and prosecution of their traffickers.
    Alongside special agents are victim assistance specialists 
in the field who are vital to stabilizing that victim. This 
small group but growing program is essential to HSI 
investigations. A provision for its expansion to be truly 
commensurate with our investigations is included in the 
reauthorization of the TVPA.
    In conclusion let me bring you back to our trafficker Ms. 
Clark. A neighbor called police after seeing the victim outside 
Clark's house washing a car and wearing clothing inappropriate 
for the freezing weather. This shows that collectively we have 
come a long way because when the TVPA was enacted 18 years ago, 
few people knew what trafficking was let alone how to respond 
to it. It takes public awareness like the Blue Campaigns' 
efforts, dedicated prosecutors like my friends at Department of 
Justice, and investigators like HSI, trained and ready to 
employ a victim-centered approach while bringing the 
traffickers to justice.
    Thank you for shining a light on human trafficking and for 
the opportunity to appear here today.
    [The prepared statement of Mr. Cagen follows:]
                 Prepared Statement of Steven W. Cagen
                           September 26, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss the role of U.S. Immigration and Customs Enforcement 
(ICE) in investigating human traffickers and protecting victims. 
Fighting all forms of modern-day slavery is one of ICE's top 
operational goals, specifically to ``disrupt and dismantle organized 
human smuggling and trafficking.'' As one of 26 Special Agents in 
Charge, I can attest to the pervasiveness of the crime, as well as the 
vital role ICE's Homeland Security Investigations (HSI) plays in 
investigating human trafficking crimes, assisting victims, and bringing 
perpetrators to justice. I am also honored to have our partners in the 
fight against human trafficking on the panel with me today, including 
DHS Office of Partnership and Engagement, Assistant Secretary John 
Hill, who oversees the Department of Homeland Security's (DHS) Blue 
Campaign, and Assistant Attorney General John Gore from the Department 
of Justice (DOJ).
    ICE HSI is the leader in combatting transnational criminal 
organizations engaged in human trafficking. ICE HSI conducts more than 
1,000 human trafficking investigations annually, identifies and assists 
hundreds of victims, conducts extensive local outreach and training to 
generate leads, and trains foreign law enforcement partners on human 
trafficking through International Law Enforcement Academies (ILEA). As 
a lead Federal law enforcement agency responsible for investigating 
human trafficking, we leverage our global operational apparatus of more 
than 200 domestic offices and 67 international offices in 50 countries. 
This global footprint allows HSI to be strategically situated to work 
with law enforcement partners, as well as non-governmental 
organizations, which bring human trafficking tips and leads to HSI 
Special Agents world-wide.
    The mission of our human trafficking investigations is two-fold: 
(1) To proactively identify cross-border criminal trafficking 
organizations and prioritize investigations according to the degree of 
risk posed by each to National security and public safety--HSI targets 
human trafficking organizations with the goal of disrupting and 
dismantling the organization and seizing their illegally obtained 
assets to remove the profit incentive; and (2) to employ a victim-
centered approach, where equal value is placed on the identification 
and stabilization of victims, as well as the investigation and 
prosecution of traffickers. ICE HSI as an agency is first and foremost 
concerned with protecting the victim and, therefore, identifying and 
assisting them is paramount.
    To accomplish its anti-trafficking mission, ICE HSI works in close 
coordination with other components of DHS, law enforcement agencies at 
the local, Tribal, State, and Federal levels, as well as foreign law 
enforcement, non-governmental organizations (NGO's), victim service 
providers, and private industry to protect victims, investigate and 
prosecute offenders, and prevent trafficking from occurring. ICE HSI 
Special Agents and Victim Assistance Personnel are directly supported 
by key ICE headquarters programs, including the Human Trafficking Unit 
(HTU), the Victim Assistance Program (VAP), the Parole and Law 
Enforcement Programs Unit (PLEPU), the Forced Labor Program, the Child 
Exploitation Investigations Unit, and the interagency Human Smuggling 
and Trafficking Center (HSTC).
    We also have a robust portfolio to counter human smuggling. 
However, human trafficking is a distinctly different crime from human 
smuggling. Human trafficking is exploitation-based, with or without a 
border crossing, and requires force, fraud, and coercion compelling 
someone into labor or commercial sex, or a minor engaged in commercial 
sex. Conversely, human smuggling is transportation-based, and requires 
the crossing of a border, these individuals voluntarily seek to gain 
illegal entry into the United States. Human smuggling can transition 
and develop into trafficking once force, fraud, or coercion are 
introduced into the scheme to induce participation in forced labor or 
commercial sex.
Strategic Approach to Combating Human Trafficking
    The counter-trafficking strategy ICE HSI employs is rooted in 
prevention, protection, prosecution, and partnership. Our victim-
centered approach relies on close coordination with the Victim 
Assistance Program to connect survivors with service providers. We seek 
to aggressively target human traffickers using a comprehensive 
approach. Our emphasis on partnerships involves significant 
coordination, outreach, and coalition-building efforts. This strategy 
is a force multiplier and has paid a lot of dividends in successful 
prosecutions, as well as in identifying and assisting victims.
    ICE HSI has dedicated human trafficking investigative groups in 
each of the Special Agent in Charge field offices with subject-matter 
experts in outlying offices as well. These specialized agents 
participate in more than 120 human trafficking task forces Nation-wide 
consisting of Federal, State, and local law enforcement, as well as 
victim service providers. Moreover, HSI has participated extensively in 
the interagency Anti-Trafficking Coordination Team (ACTeam) Initiative, 
along with the DOJ's Human Trafficking Prosecution Unit, the U.S. 
Department of Labor, the U.S. Department of State (DOS), and the 
Federal Bureau of Investigation, convening Anti-Trafficking 
Coordination Teams in 12 competitively selected cities to proactively 
develop and advance significant, high-impact Federal human trafficking 
investigations and prosecutions. In addition, local law enforcement 
agencies detail officers to ICE HSI human trafficking groups to work 
full-time with ICE HSI Special Agents on trafficking investigations.
    As part of HSI's Trafficking in Persons Strategy, we also conduct a 
significant amount of outreach in order to generate leads from the 
organizations to which victims are likely to trust, confide, and report 
the crime. Annually, this strategy results in several thousand contacts 
with other law enforcement, NGO's, and community organizations 
concerning human trafficking within the United States. This routinely 
involves hundreds of training/engagement events with NGO's and law 
enforcement.
    ICE HSI is a key partner of the Blue Campaign along with U.S. 
Citizenship and Immigration Services (USCIS), U.S. Customs and Border 
Protection (CBP), the Federal Law Enforcement Training Center (FLETC), 
Transportation Security Administration (TSA) and the United States 
Coast Guard (USCG). The Blue Campaign is a National awareness campaign 
to: (1) Educate the public, law enforcement, and other institutions on 
human trafficking in the United States; and (2) to increase 
understanding of the indicators of human trafficking, and to 
appropriately recognize and respond to possible cases of human 
trafficking. Working in collaboration with first responders, 
governmental, non-governmental and private-sector organizations, the 
Blue Campaign magnifies this important, National public outreach.
    In addition to providing basic and advanced training to 
investigators in the United States, we also provide a substantial 
amount of international human trafficking training, which is delivered 
to foreign law enforcement, prosecutors, and victim service providers 
in collaboration with ICE attache offices typically from more than 70 
countries annually. Working with DOS, we also coordinate and train at 
numerous events at ILEAs and U.S. embassies world-wide. The training 
includes our efforts to combat human trafficking, investigative 
techniques, bilateral investigations, indicators of human trafficking, 
victim identification, and victim assistance with a focus on building 
the capacity to conduct human trafficking investigations with host 
country authorities.
The Global Scope of Human Trafficking
    The United States is a source, transit, and destination country for 
men, women, transgender individuals, and children--both U.S. citizens 
and foreign nationals--subjected to sex trafficking and forced labor. 
Human traffickers and victims can be of any age, race/ethnicity, sex, 
gender identity, nationality, immigration status, cultural background, 
socio-economic class, and education attainment level. Traffickers can 
be relatives, family friends, gang members, or associated with 
transnational criminal organizations, and they can operate alone or in 
groups. Traffickers use various forms of force, fraud, and coercion to 
control and exploit victims, including debt bondage, fraudulent 
employment opportunities, false promises, violence, and threats of 
violence. Human trafficking occurs in both legal and illegal 
industries, and may intersect with other criminal activity, such as 
drug trafficking, human smuggling, or money laundering. Though 
clandestine by nature, it is an extremely lucrative illicit activity 
with estimated annual global profits of $150 billion, according to the 
International Labour Organization.
Challenges to Combatting Human Trafficking
    To minimize risk and maximize profitability, traffickers work to 
preserve the clandestine nature of the crime by creating agile 
networks, adapting to profit and risk environments and adopting 
advanced technologies. These characteristics make it difficult to 
detect and, as a result, difficult to gather quality information. We 
are constantly working to improve detection of human trafficking cases 
to make the crime less clandestine and to ensure we are equipped to 
identify potential victims, traffickers, hot spots, and transportation 
routes. For example, we've enhanced our training at FLETC to include 
mandated human trafficking training for new agents.
    Immigration status is often perceived to be a barrier to reporting 
suspected human trafficking. Some victims and/or their service 
provider/attorney do not call police, file a case, etc. because of fear 
of deportation/immigration enforcement. A wide range of crimes are 
unreported/underreported and have become harder to investigate when the 
victims are immigrants or have limited English proficiency. Foreign 
national victims are not always aware of their eligibility for certain 
legal benefits and services. A victim-centered approach requires we 
have policies and practices in place to protect trafficking victims 
from being susceptible to removal.
    Statistically, there are fewer labor trafficking investigations 
because of the difficulty in detecting labor trafficking and separating 
it from other forms of labor exploitation and workplace violations. It 
can be especially difficult to detect, investigate, and prosecute for a 
number of reasons, including isolation of the victims, limited sources 
of corroborating evidence, and challenges in earning the trust of 
victims in order to elicit their statements. Not all law enforcement is 
sensitive to a trauma-informed, victim-centered approach and 
appreciative of the full spectrum of human trafficking (not just sex 
trafficking, but labor and domestic servitude as well). Also, many 
victims do not see themselves as victims. Consistent, survivor-informed 
training across law enforcement should be standardized (including 
terminology, typology, etc.) and continually updated, drawing on the 
expertise offered by survivors themselves.
    Law enforcement should also be cognizant that the justice law 
enforcement seeks for a victim is not always the justice a victim seeks 
for themselves. It is not just about prosecuting the traffickers. 
Sometimes victims want to be removed from the situation and stabilized 
and move on with their life. Not every trafficking victim wants to play 
a role in holding the trafficker accountable.
    We continue to engage with foreign counterparts to develop anti-
trafficking strategies in their respective regions.
The Victim Assistance Program
    Our Victim Assistance Program (VAP) provides overall guidance on 
victim assistance and is a resource to all ICE programs for training, 
technical assistance, and monitoring compliance with Federal crime 
victim assistance statutes and the Attorney General Guidelines for 
Victims and Witness Assistance. VAP is also a critical resource to ICE 
HSI investigations and the ensuing criminal prosecutions by 
safeguarding victims' rights and ensuring access to the services to 
which they are entitled by law, as well as providing the assistance 
they need so that they can participate actively and fully in the 
criminal justice system process. VAP personnel respond to victims' 
issues in a wide range of Federal crimes, including human trafficking, 
child pornography, child sex tourism, child sex trafficking, white 
collar crime, and human rights abuse.
    HSI Victim Assistance Specialists support our approximately 6,100 
Special Agents and train them on victims' rights, immigration relief 
for foreign national victims, human trafficking, child exploitation, 
forensic interviewing, and other victim issues. Victim Assistance 
Specialists also assist victims with resources and service referrals 
for Federal, State, and local crime victim services, as well as 
referrals to non-governmental and community-based victim service 
providers. In addition to assistance for victims, another service 
provided by the VAP is the Victim Notification Program and hotline, 
which provides, for those prior victims who register, notifications of 
the release from incarceration or removal of criminal alien offenders.
    Along with the Victim Assistance Specialists, VAP includes Forensic 
Interview Specialists to conduct legally defensible, victim-sensitive, 
fact-finding, forensic interviews, which are developmentally 
appropriate and take into account the victim's age, language skills, 
mental health, and learning capacity.
    We are pleased that the proposed Trafficking Victims Protection 
Reauthorization Act establishes an HSI Office of Victim Assistance, 
taking to scale the current HSI Victim Assistance Program by increasing 
the number of Victim Assistance Specialists from 27 to more than 100, 
and increasing the number of Forensic Interview Specialists from 6 to a 
minimum of 26. Practically, this means that instead of having a Victim 
Assistance Specialist cover regions that sometimes include multiple 
States, one VAS would be located in every HSI office that is 
participating in a human trafficking task force. Establishing this 
office would be a force multiplier for victims, investigations, and 
public safety. This key legislation will further enhance HSI's capacity 
to support victims and investigate human traffickers.
Making an Impact
    Working closely with its partners, to include prosecutors at the 
local, State, and Federal levels, ICE HSI has been able to make a 
significant difference and move forward U.S. counter-trafficking 
efforts. In the last 2 years, we have initiated nearly 2,000 human 
trafficking cases, resulting in the identification and assistance of 
almost 1,000 victims and over 3,000 criminal arrests, and 1,200 
convictions. In fiscal year 2018 (as of August 31, 2018) 778 human 
trafficking cases have been initiated, resulting in 1,410 criminal 
arrests, 759 indictments and 425 convictions.
    One example of our efforts with Mexico is the cross-border 
initiatives, to target transnational criminal organizations (TCOs) 
responsible for sex trafficking Mexican women in the United States. 
Mexico is the country of origin of the largest number of foreign-born 
human trafficking victims identified in the United States. In response 
to numerous Federal investigations and prosecutions of trafficking 
networks operating across the U.S.-Mexico border, DOJ and DHS launched 
the U.S.-Mexico Bilateral Human Trafficking Enforcement Initiative to 
enhance collaboration with Mexican law enforcement counterparts in 
order to more effectively combat trans-border trafficking threats. 
Through this initiative, U.S. and Mexican authorities exchange leads 
and intelligence to dismantle transnational trafficking networks 
through high-impact prosecutions in both the United States and Mexico.
    In addition to coordinating the development of bilateral 
investigations and prosecutions, DOJ, DHS, and their Mexican law 
enforcement counterparts engage in extensive exchanges of expertise and 
case-based mentoring to advance best practices in victim-centered 
enforcement strategies. The initiative has achieved significant 
results: U.S. Federal prosecutions of over 170 defendants; Mexican 
State and Federal prosecution of over 30 associated defendants; 
extradition of 8 defendants from Mexico to the United States to face 
charges; identification of and assistance to more than 200 victims; and 
recovery of over 20 victims' children from the trafficking networks' 
control. We have coordinated bilateral enforcement actions to apprehend 
co-conspirators on both sides of the border.
Immigration Options for Foreign Victims of Human Trafficking
    Short- and long-term immigration options assist law enforcement in 
stabilizing victims, which can lead to improved cooperation with law 
enforcement and humanitarian relief to victims. ICE HSI can provide 
``Continued Presence'' (CP) to victims, an important law enforcement 
tool that allows a ``victim of a severe form of trafficking,'' who may 
be potential witnesses to such trafficking, to remain in the United 
States to facilitate an investigation or prosecution of human 
trafficking-related crimes. CP provides for the temporary deferral of 
removal actions, along with temporary work authorization and potential 
access to public benefits and services. It also allows victims to 
remain in the United States while pursuing a civil action against their 
traffickers.
    Continued Presence is vital to law enforcement efforts to combat 
human trafficking. It is a necessary means of stabilizing victims so 
they can cooperate as witnesses in bringing traffickers to justice. CP 
may be granted for an initial period of 2 years and may be renewed for 
up to 2 years to facilitate an investigation or prosecution against 
traffickers. The appropriate application of Continued Presence can lead 
to more successful prosecutions of traffickers and can increase the 
odds of identifying and rescuing more victims. USCIS can also provide 
longer-term immigration relief to certain qualifying victims of severe 
forms of trafficking through the T visa and victims of other qualifying 
crimes through the U visa.
                               conclusion
    ICE remains committed to utilizing its authorities and resources to 
arrest human traffickers and identify and assist the victims of this 
horrific crime. We will build upon the successes of our outreach and 
victim-centered approach, and share our lessons learned and expertise 
to expand the global fight against this horrific crime. We will 
continue to dismantle and disrupt the criminal organizations engaged in 
human trafficking until we end the threat that human trafficking poses.
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. I 
would be pleased to answer any questions.

    Ms. McSally. Thank Special Agent Cagen.
    The Chair now recognizes Assistant Attorney General Gore 
for 5 minutes.

  STATEMENT OF JOHN GORE, ACTING ASSISTANT ATTORNEY GENERAL, 
       CIVIL RIGHTS DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Gore. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee, I thank you for this 
important opportunity to discuss the Department of Justice's 
extensive efforts to combat human trafficking.
    The Department is resolutely committed to eradicating the 
scourge of human trafficking from our communities in our 
country to holding perpetrators accountable and to bringing 
justice to the victims and survivors of this destructive crime.
    Make no mistake about it, human trafficking is a civil 
rights and public health crisis in this country. Human 
trafficking is often referred to as modern-day slavery. Its 
victims are denied their freedom, they suffer horrific 
psychological and physical abuse including violence, sexual 
abuse, substance abuse, mental manipulation, malnutrition, and 
neglect. It is hard to understand this kind of cruelty and 
shocking to contemplate its scope. Sadly, human trafficking is 
everywhere, in hospitals where we receive care, in the hotels 
where we stay, in the restaurants where we eat, in the 
airports, bus stations, and train stations where we travel, in 
the cities large and small, poor and prosperous where we live, 
and of course on-line.
    Human trafficking not only devastates lives, it also 
undermines the security of our communities, the integrity of 
our borders, and the rule of law. For these reasons the 
attorney general has declared that combating human trafficking 
is one of the Department's top priorities. The Department's 
Crime Reduction and Public Safety strategy calls for aggressive 
and coordinated efforts to eliminate human trafficking from the 
country.
    The Department is currently prosecuting unprecedented 
numbers of human traffickers: 2017 was a record-setting year 
for our enforcement efforts. Last year alone we obtained 
convictions of 499 human traffickers, a record and a 14 percent 
increase over the prior year. We also secured indictments in a 
record 282 cases involving 553 defendants.
    We could not achieve these record-setting results without 
strong partnerships across the Executive branch with the 
Department of Homeland Security, the Department of Labor, the 
Department of State, and the Department of Health and Human 
Services.
    For example, the Civil Rights Division's Human Trafficking 
Prosecution Unit is leading a groundbreaking anti-trafficking 
initiative across the Executive branch; that initiative called 
the Anti-trafficking Coordination Team or ACTeam Initiative 
convenes and coordinates interagency teams of Federal agents 
and prosecutors in select districts and so far, the results of 
this initiative have been tangible.
    In Phase 1, human trafficking prosecutions more than 
doubled in the ACTeam districts compared to more modest gains 
in other districts. Phase 2 is still under way but so far it 
has produced promising results including a significant 
prosecution of 38 individuals for operating a transnational 
trafficking enterprise that exploited Thai women, hundreds of 
Thai women, all across the United States.
    We also rely on strong partnerships with State, local, and 
Tribal law enforcement agencies. The Department invests heavily 
in training and funding programs to help build the capacity of 
those agencies to combat human trafficking within their 
jurisdictions. Moreover, in consultation with State, local, and 
Tribal law enforcement leaders every United States Attorney's 
Office in the country has devised and implemented a district-
specific strategy to combat human trafficking with specific 
details on the coordination of investigations, enforcement 
actions, and victim and survivor support.
    Human trafficking is a crime that knows no boundaries so 
neither can our enforcement efforts. The U.S.-Mexico Bilateral 
Enforcement Initiative which the Department leads in 
partnership with Homeland Security and Mexican authorities has 
enabled us to bring high-impact prosecutions against 
transnational trafficking enterprises operating along the U.S.-
Mexico border. Through the initiative U.S. and Mexican 
authorities share intelligence, leads, evidence, and tactical 
analysis. This international collaboration has allowed us to 
increase and enhance our ability to identify, interdict, and 
dismantle brutal trafficking enterprises.
    The initiative has led to many prosecutions in Mexico and 
the United States including Federal prosecutions of over 170 
defendants in this country. Last year we secured convictions of 
all 8 members of a notorious sex-trafficking enterprise that 
lured vulnerable young women and girls on false promises, 
smuggled them into the United States, coerce them into 
prostitution for over a decade, and laundered the criminal 
proceeds back to Mexico.
    With the assistance of our outstanding Mexican 
counterparts, we executed a simultaneous take-down on both 
sides of the border and secured the extradition of five 
defendants to the United States.
    The Department's enforcement efforts have taught us an 
important lesson: Our work is most effective when it remains 
survivor-centered and trauma-informed. Our work is not complete 
until victims and survivors of human trafficking have been able 
to put their lives back together. Victim and witness 
coordinators from the Civil Rights Division, the Criminal 
Division, the FBI, and United States Attorneys' Offices, work 
tirelessly to provide support and stability to victims in areas 
such as housing, medical care, and counseling.
    The Department's Office of Justice programs also 
administers the largest amount of Federal funds dedicated to 
helping human trafficking survivors in the United States. 
Thanks to the Congress that amount totals $77 million for 
fiscal year 2018. That money funds victim service providers, 
training programs, public awareness, and 29 anti-trafficking 
task forces, all across the country, comprised of Federal, 
State, local, and Tribal law enforcement, and community and 
faith-based organizations, dedicated to providing services to 
survivors.
    In fiscal year 2017 Department of Justice grantees reported 
assisting a total of 8,003 clients and training more than 
56,000 people on how to identify and assist human trafficking 
survivors. The Department's commitment to the robust and 
victim-centered enforcement of the Human Trafficking laws that 
the Congress has enacted will never falter, our commitment is 
robust, together we can eliminate this scourge of human 
trafficking and make our communities and our country more free, 
more fair, more open, and more safe.
    I thank you for this invitation and look forward to 
answering your questions.
    [The prepared statement of Mr. Gore follows:]

                    Prepared Statement of John Gore

                           September 26, 2018

    Chairwoman McSally, Ranking Member Vela, and Members of the 
committee, I thank you for this opportunity to discuss the 
Department of Justice's (Department) extensive efforts to 
combat human trafficking in all its forms. The Department is 
deeply committed to seeking justice on behalf of victims and 
survivors of this destructive crime and holding perpetrators 
accountable. We appreciate the opportunity to highlight the 
significant momentum of our counter-trafficking efforts and the 
strategies that we are implementing to make them even more 
effective. We work to prosecute human traffickers, build 
interagency alliances to combat human trafficking and to assist 
survivors.
    Human trafficking is often referred to as modern-day 
slavery in which victims are denied their freedom. Victims of 
human trafficking can endure horrific psychological and 
physical abuse, including violence, sexual abuse, substance 
abuse, mental manipulation, malnutrition, and neglect.
    It is hard to contemplate this kind of cruelty--and 
shocking to contemplate its scope. Sadly, human trafficking is 
widespread: In the hospitals where we receive care; in the 
hotels where we stay; in the restaurants where we eat; in the 
airports, bus stations, and train stations where we travel; in 
the truck stops we drive past; in the cities, large and small, 
poor and prosperous, that we live in; and, of course, on-line. 
Unfortunately, there is no indication that the problem is 
abating. From 2010 to 2014, the National Center for Missing and 
Exploited Children reported a 846 percent increase in reports 
of suspected child sex trafficking to the CyberTipline. The 
increase in reports is likely fueled, in part, by the wide-
spread use of the internet to recruit and advertise vulnerable 
and at-risk victims. As we continue to raise awareness about 
human trafficking, we expect to see an increase in the rate of 
detection and reporting.
    Human trafficking not only devastates lives, it also 
undermines the safety of our communities, the integrity of our 
borders, the vitality of our economy, and the rule of law. For 
this reason, the attorney general has declared the fight 
against human trafficking to be one of the Department's highest 
priorities. The Department's Crime Reduction and Public Safety 
Strategy has called for ``aggressive and coordinated'' efforts 
``to deter those who violate our borders and subject others to 
forced labor, involuntary servitude, sex trafficking, and other 
forms of modern-day slavery.''
    The Department of Justice is intensely focused on holding 
traffickers criminally accountable for their actions. In doing 
so, the Department hopes to deter and prevent future crimes by 
declaring their conduct intolerable in a Nation founded on 
ideals of individual rights and the rule of law. We are certain 
that to succeed in this mission we must continue to advance 
survivor-centered strategies that enable victims and witnesses, 
who are often silenced by fear, to come forward and aid 
authorities in bringing perpetrators to justice.
    The Department of Justice continues to prosecute 
unprecedented numbers of human traffickers. Last year alone, we 
secured a record 499 trafficking convictions--a 14 percent 
increase over the previous year--and we filed a record 282 
cases against 553 defendants. The Department is continuing to 
use the array of powerful statutes Congress has given us to 
pursue human traffickers. Our efforts include investigating and 
prosecuting all perpetrators to the fullest extent of the law: 
Not only the traffickers who recruit victims and then cruelly 
exert control over their lives, but also the customers who 
patronize those victims, the hotel owners who profit by 
participating in trafficking ventures--and the facilitators of 
on-line trafficking who profit from advertising commercial sex.
    Through our strong partnerships within the Department of 
Justices' components, we have successfully prosecuted human 
trafficking cases. Our success is attributed to collaboration 
between: The United States Attorney's Offices, the Civil Rights 
Division's Human Trafficking Prosecution Unit, the Criminal 
Division's Child Exploitation and Obscenity Section, the FBI, 
and our Office of Justice Programs, which supports anti-
trafficking task forces, victim assistance grant programs, 
research studies, community policing efforts, and resource 
publications. Each of these partners within the Department 
brings highly specialized expertise in distinct aspects of the 
wide array of threats we encounter. The specialized expertise 
involves varying combinations of sex trafficking and labor 
trafficking domestically and internationally, exploiting both 
adults and minors, and perpetrated by a range of isolated 
individuals, loosely affiliated networks, domestic gangs, and 
transnational criminal organizations. In addition, we are 
increasingly leveraging the specialized expertise of the 
Department's organized crime, financial crime, and cyber crime 
units to further enhance the impact of these trafficking 
prosecutions.
    We have also achieved these results through our 
partnerships with other Federal agencies, including the 
Department of Homeland Security's Homeland Security 
Investigations, the Department of Labor's Office of Inspector 
General and Wage and Hour Division, the Department of State's 
Diplomatic Security Service, and the Department of Health and 
Human Services. In addition to our Federal enforcement 
partnerships, we rely extensively on our mission-critical 
alliances with State, local, and Tribal law enforcement. We 
also depend on faith-based organizations, and non-governmental 
victim service providers who earn the trust of those at risk, 
supporting them in finding the courage to come forward and 
cooperate with law enforcement to investigate and prosecute the 
human traffickers.
    The Department of Justice is continuing to lead 
groundbreaking enforcement initiatives that have significantly 
expanded our ability to bring high-impact trafficking 
prosecutions that dismantle transnational criminal 
organizations. The Anti-Trafficking Coordination Team (ACTeam) 
Initiative, organizes interagency teams composed of Federal 
agents and prosecutors in select Districts to develop high-
impact trafficking cases in coordination with National subject-
matter experts. The results of the ACTeam Initiative have been 
successful. In Phase I of the ACTeam Initiative, prosecutions 
more than doubled in ACTeam Districts, compared to far more 
modest gains elsewhere. Phase II, which is still on-going, is 
producing promising results--including a significant 
prosecution charging 38 defendants with operating an extensive 
transnational sex trafficking enterprise that exploited 
hundreds of Thai women across the United States.
    The U.S.-Mexico Bilateral Human Trafficking Enforcement 
Initiative enables us to bring high-impact prosecutions against 
transnational trafficking enterprises that operate across the 
U.S.-Mexico border. Through the U.S.-Mexico Bilateral Human 
Trafficking Enforcement Initiative, U.S. and Mexican anti-
trafficking authorities exchange leads, evidence, strategic 
intelligence, tactical analytics, and advanced expertise in 
survivor-centered enforcement strategies through direct 
operational coordination channels. This work has enhanced the 
capacity of both U.S. and Mexican law enforcement to initiate 
high-impact prosecutions aimed at dismantling human trafficking 
networks operating across the U.S.-Mexico border. By employing 
the capabilities of our international law enforcement 
counterparts and streamlining coordination of interrelated 
investigations--ones with victims, witnesses, evidence, 
continuing criminal conduct, associated targets, and fugitive 
defendants in common--this Initiative has significantly 
expanded our ability to identify, interdict, and dismantle 
brutal trafficking enterprises. Because of this Initiative, we 
are bringing traffickers to justice, removing victims' children 
from the traffickers' control, and helping survivors rebuild 
their lives.
    The Department has successfully prosecuted human 
trafficking-related cases in both Mexico and the United States, 
including U.S. Federal prosecutions of over 170 defendants in 
multiple cases in Georgia, New York, Florida, and Texas, in 
addition to numerous Mexican Federal and State prosecutions of 
associated sex traffickers. Just last year, we convicted all 8 
members of a notorious sex trafficking organization that lured 
dozens of vulnerable young women and girls on false promises, 
smuggled them into the United States, compelled them into 
prostitution in New York, Georgia, and Alabama for over a 
decade, and laundered the criminal proceeds back to Mexico. We 
conducted a coordinated, simultaneous takedown on both sides of 
the border, then secured the extradition of 5 defendants to the 
United States, with the assistance of the Criminal Division's 
Office of International Affairs, to face multiple human 
trafficking, organized crime, alien smuggling, money 
laundering, and related charges. A few months ago, the United 
States secured the extradition of 4 human trafficking 
defendants apprehended in Mexico as a result of another 
bilateral investigation and prosecution that culminated in a 
23-count indictment charging 8 defendants with operating an 
extensive transnational sex-trafficking enterprise that lured 
young women and girls on false promises then compelled them 
into prostitution for the traffickers' profit using physical 
and sexual violence, threats, and psychological coercion.
    We are continuing to break new ground by building 
interagency alliances to combat human trafficking from all 
angles. We are working with partners to detect forced labor in 
the importation of goods and leveraging drug enforcement 
partners to disrupt opioid-based trafficking schemes that 
manipulate victims' fears of opiate withdrawal to compel them 
into prostitution, perpetuating both the opioid crisis and the 
scourge of sex trafficking. As our anti-trafficking efforts 
continue to gain momentum, we remain keenly aware of the many 
challenges that lie ahead. We are committed to strengthening 
strategic partnerships and advancing innovative approaches that 
will enable us to make our fight against human trafficking more 
effective than ever before.
    Our anti-trafficking efforts extend beyond prosecutions. 
The Department's Office of Justice Programs (OJP) administers 
the largest amount of Federal funding dedicated to assisting 
survivors of human trafficking in the United States, receiving 
$77 million in fiscal year 2018 funding to do so. In addition 
to funding victim service providers across the country, the 
Department funds 29 anti-trafficking task forces comprised of 
local, State, Tribal, and Federal criminal justice components, 
victim service providers, and community- and faith-based 
organizations that together ensure that trafficking victims are 
proactively identified and referred for appropriate services 
and offenders' cases are investigated and prosecuted. The 
Department's Office of Community Oriented Policing Services 
(COPS Office) also funds the development of guidebooks and 
publications on human trafficking, including recent 
publications on trafficking at the U.S. Southwest Border and on 
combating child sex trafficking.\1\ DOJ-funded organizations 
have provided direct services, ranging from housing to legal 
services to case management, to a record number of trafficking 
victims. Between July 2016 and June 2017, DOJ trafficking 
grantees reported assisting a total of 8,003 clients, greatly 
exceeding the total number of clients served during the entire 
first 10 years of our anti-trafficking program, as well as 
training more than 56,000 individuals on how to identify and 
assist trafficking survivors. The Department provides extensive 
training in survivor-centered, trauma-informed anti-trafficking 
strategies, often drawing on the expertise of survivors 
themselves, because stabilizing survivors and restoring their 
rights is not only our statutory duty under the Trafficking 
Victims Protection Act; it is also the key to our success in 
bringing traffickers to justice for heinous crimes that go 
unpunished when victims are too terrified to come forward. We 
are actively training partners Nation-wide to utilize the 
additional statutory tools enacted in April in the Allow States 
and Victims to Fight On-line Sex Trafficking Act.
---------------------------------------------------------------------------
    \1\ See, e.g., Below Ten: Combating Drugs, Guns, and Human 
Trafficking at the U.S. Southwest Border (https://ric-zai-inc.com/
Publications/cops-p369-pub.pdf). We also have publications available on 
child sex trafficking (https://ric-zai-inc.com/
ric.php?page=detail&id=COPS-P342 and https://ric-zai-inc.com/
ric.php?page=detail&id=COPS-P318).
---------------------------------------------------------------------------
    Thank you for this opportunity to speak before you today, I 
look forward to further discussions on these issues.

    Ms. McSally. Thank you.
    The Chair now recognizes the Honorable Judge Demmert for 5 
minutes to testify.

STATEMENT OF MICHELLE DEMMERT, CHIEF JUSTICE, CENTRAL COUNCIL, 
           TLINGIT AND HAIDA INDIAN TRIBES OF ALASKA

    Ms. Demmert. Thank you Chairwoman McSally, Ranking Member 
Vela, and distinguished Members.
    I am pleased to be here today to address trafficking and 
its impact on Native American communities.
    Thank you so much for recognizing the impact trafficking 
has on our communities and your interest in involving our 
Tribes in the solutions. This will be key.
    Trafficking in multiple forms has been utilized as a tool 
of genocide and colonization of American Indians and Alaskan 
Natives within the United States since first contact with 
Europeans. This practice continues today in different forms.
    In the United States there is no tracking method that 
provides a complete picture of sexual exploitation or human 
trafficking. The data that is available supports the conclusion 
that our women, our Tribal women are trafficked at 
disproportionately high rates yet a recent GAO report found 
that from 2013 to 2016 there were only 14 Federal 
investigations and two Federal prosecutions of human 
trafficking offenses in Indian country.
    Traffickers prey on persons perceived to be vulnerable. Our 
women and girls have many of the indicators that increase 
vulnerability, including being a relatively young, high-poverty 
population, high rates of homelessness and substance abuse, 
high rates of past violent victimization, and a lack of 
resources and support services.
    In Alaska our women and girls represent a disproportionate 
number of trafficked girls in relation to the population. It is 
reported that 28 percent of the youth at the Covenant House 
Alaska were survivors of human trafficking and that these cases 
were some of the worst in the Nation.
    Current Federal law limits the authority of Indian nations 
to fully protect victims of crime and respond to crimes of 
trafficking that occur on our lands because criminal 
jurisdiction is divided among Federal, Tribal, and State 
governments. Depending on the location of the crime, the type 
of crime, the race of the perpetrator, and the race of the 
victim, the confusing jurisdictional scheme often leads to a 
failure to act.
    In 1978 the Supreme Court ruled in Oliphant v. Suquamish 
that absent specific direction from Congress, Tribal nations do 
not have jurisdiction over crimes committed by non-Indians in 
Indian country. According to a Senate Committee on Indian 
Affairs report, ``Criminals tend to see Indian reservations and 
Alaska Native villages, as places they have free rein where 
they can hide behind the current ineffectiveness of the 
judicial system. Without the authority to prosecute crimes of 
violence against women, a cycle of violence is perpetuated that 
allows and even encourages criminals to act with impunity in 
Tribal communities and denies Native women equality under the 
law, by treating them differently than other women in the 
United States.''
    Again, Alaska has a uniquely, complex jurisdictional 
arrangement and no solution has yet been legislated. 
Unfortunately, the amendments included in Bauer 2013 creating a 
framework for some Tribes to exercise jurisdiction over 
domestic violence crimes are limited in scope and do not reach 
sex trafficking crimes. What can be done?
    There are several bills currently pending before Congress 
that would help achieve these goals. H.R. 6545, the Violence 
Against Women Reauthorization Act of 2018 would make clear that 
Tribal courts can hold anyone who traffics American Indians or 
Alaska Natives in Indian country accountable for their crimes, 
however this act wouldn't help Alaska Natives because of their 
jurisdictional issues. H.R. 4608 the Survive Act, it would 
amend the Victims of Crime Act to provide services and 
compensation to trafficking and other crime victims in Tribal 
communities. S. 3280, the End Trafficking of Native Americans 
Act would improve coordination among Federal agencies.
    Taken together these three bills would significantly 
improve access to justice and services for American Indian and 
Alaskan Native trafficking victims. I urge you to support these 
bills and I would be happy to answer any questions that you may 
have.
    Gunalcheesh haat. Thank you.
    [The prepared statement of Ms. Demmert follows:]
                 Prepared Statement of Michelle Demmert
                           September 26, 2018
    Good morning, I am pleased to present testimony to the subcommittee 
today on how human trafficking is impacting Native communities. My name 
is Michelle Demmert, and I am an enrolled citizen of the Central 
Council Tlingit and Haida Indian Tribes of Alaska, and I am the elected 
Chief Justice of our Supreme Court. I am also the co-chair of the 
National Congress of American Indians' Task Force on Violence Against 
Women and the Alaska Native Women's Resource Center Law and Policy 
Consultant.
    Trafficking, in multiple forms, has been utilized as a tool of 
genocide and colonization of American Indians and Alaska Natives (AI/
AN) within the United States since first contact with Europeans. 
Leading sex trafficking researcher and Native scholar, Dr. Sandi Pierce 
notes that it is no secret that ``the selling of North America's 
indigenous women and children for sexual purposes has been an on-going 
practice since the colonial era. There is evidence that early British 
surveyors and settlers viewed Native women's sexual and reproductive 
freedom as proof of their `innate' impurity, and that many assumed the 
right to kidnap, rape, and prostitute Native women and girls without 
consequence.''\1\ The intentional use of force, in both sexual and 
labor contexts, against AI/AN people is an act that seeks to degrade 
Tribal sovereignty through an actual stealing away of our people or a 
utilization of them in unnatural ways.
---------------------------------------------------------------------------
    \1\ Sandi Pierce and Suzanne Koepplinger, New language, old 
problem: Sex trafficking of American Indian women and children, 
National Resource Center on Domestic Violence (2011), https://
vawnet.org/material/new-language-old-problem-sex-trafficking-american-
indian-women-and-children.
---------------------------------------------------------------------------
    Recently, there has been an increase in interest from Congress 
regarding human trafficking in Tribal communities. The Government 
Accountability Office (GAO) released two reports on this topic in 
2017.\2\ On September 27 of last year, the Senate Committee on Indian 
Affairs held a hearing on ``the GAO Reports on Human Trafficking of 
Native Americans in the United States.''\3\ Witnesses at that hearing 
included the GAO, the Bureau of Indian Affairs' Office of Justice 
Services (BIA OJS), the Department of Justice's Office of Tribal 
Justice, and the Executive Director of the Minnesota Indian Women's 
Sexual Assault Coalition. I encourage you to review the testimony from 
that hearing to get a greater understanding of how the Federal 
Government attempts to address trafficking in Tribal communities and 
statistics from a Tribal perspective in an urban area.\4\
---------------------------------------------------------------------------
    \2\ U.S. Gov't Accountability Office, GAO-17-325, Human 
Trafficking: Action Needed to Identify the Number of Native American 
Victims Receiving Federally-funded Services (2017); U.S. Gov't 
Accountability Office, GAO-17-624, Human Trafficking: Information on 
Cases in Indian Country or That Involved Native Americans (2017).
    \3\ Oversight Hearing on ``The GAO Reports on Human Trafficking of 
Native Americans in the United States'': Before the S. Comm. on Indian 
Affairs, 115th Cong. (2017).
    \4\ Melissa Farley, Nicole Matthews, Sarah Deer, Guadalupe Lopez, 
Christine Stark & Eileen Hudon, Garden of Truth: The Prostitution and 
Trafficking of Native Women in Minnesota, available at http://
www.niwrc.org/resources/garden-truth-prostitution-and-trafficking-
native-women-minnesota.
---------------------------------------------------------------------------
               prevalence of trafficking on tribal lands
    In the United States, as well as in Canada, ``there is no data 
collection/tracking method that provides a complete picture of sexual 
exploitation or human trafficking.''\5\ The data that is available 
supports the conclusion that AI/AN women are trafficked at 
disproportionately high rates. Across four sites surveyed in the United 
States and Canada as part of a 2015 report, an average of 40 percent of 
the women who had been trafficked identified as AI/AN or First Nations:
---------------------------------------------------------------------------
    \5\ Victoria Sweet, Rising Waters, Rising Threats: The Human 
Trafficking of Indigenous Women in the Circumpolar Region of the United 
States and Canada (2014), available at https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=2399074.

``In Hennepin County, Minnesota, roughly 25 percent of the women 
arrested for prostitution identified as American Indian . . . In 
Anchorage, Alaska, 33 percent of the women arrested for prostitution 
were Alaska Native . . . In Winnipeg, Manitoba, 50 percent of adult sex 
workers were defined as Aboriginal . . . and 52 percent of the women 
involved in the commercial sex trade in Vancouver, British Columbia 
were identified as First Nations.''\6\
---------------------------------------------------------------------------
    \6\ Trafficking in Native Communities, Indian Country Today, May 
24, 2015, https://newsmaven.io/indiancountrytoday/archive/trafficking-
in-native-communities-JGKqWdmCQ0-6BCi-rN-X9w/.

    It is important to note that in not one of these cities and 
counties do Native women represent more than 10 percent of the general 
population.
    And while these data are only snapshots of sex trafficking in major 
cities, similar trends are emerging in more remote reservation 
communities. In 2015 alone, the White Earth DOVE Program (Down On 
Violence Everyday), which serves the White Earth, Red Lake, and Leech 
Lake Reservations in northwestern Minnesota, identified 17 adult 
victims of sex trafficking.\7\ In northeastern Montana, the Montana 
Native Women's Coalition reported that they have observed a 12 to 15 
percent increase over the previous year's program base (between 2014-
2015) regarding the number of Native women who have been trafficked.\8\
---------------------------------------------------------------------------
    \7\ Amy Dalrymple and Katherine Lymn, Native American populations 
`hugely at risk' to sex trafficking, Bismarck Tribune, Jan. 5, 2015, 
https://bismarcktribune.com/bakken/native-american-populations-hugely-
at-risk-to-sex-trafficking/article_46511e48-92c5-11e4-b040-
c7db843de94f.html.
    \8\ Human Trafficking Will Become One of the Top Three Crimes 
Against Native Women, Indian Country Today, July 15, 2015, http://
indiancountrytodaymedianetwork.com/2015/07/15/human-trafficking-will-
become-one-top-three-crimes-against-native-women-161083.
---------------------------------------------------------------------------
    In my home State of Alaska, the FBI and the BIA have warned Tribal 
leaders that traffickers were preying on Native women and would be 
targeting young women who traveled to Anchorage for the Alaska 
Federation of Natives conference.\9\ There has also been a great deal 
of discussion about the dangerous situation created for Native women by 
the oil boom in the Bakken region of North Dakota.\10\ ``Specifically, 
the influx of well-paid male oil and gas workers, living in temporary 
housing often referred to as `man camps,' has coincided with a 
disturbing increase in sex trafficking of Native women.''\11\
---------------------------------------------------------------------------
    \9\ ``I can't get my sister back'': Investigators warn of sex 
traffickers targeting Natives, Anchorage Daily News, April 28, 2016, 
https://www.adn.com/rural-alaska/article/i-can-t-get-my-sister-back-
investigators-warn-sex-traffickers-targeting-natives/2010/12/03/.
    \10\ Kathleen Finn ET. AL., Responsible Resource Development and 
Prevention of Sex Trafficking: Safeguarding Native Women and Children 
on the Fort Berthold Reservation, 40 Harvard Journal of Law & Gender 1, 
(2017) http://harvardjlg.com/wp-content/uploads/2012/01/jlg-winter-
3.pdf.
    \11\ Id.
---------------------------------------------------------------------------
    Human trafficking is a highly underreported crime for a variety of 
reasons, including the fact that ``many trafficking victims do not 
identify themselves as victims. Some may suffer from fear, shame, and 
distrust of law enforcement. It is also not unusual for trafficking 
victims to develop traumatic bonds with their traffickers because of 
the manipulative nature of this crime.''\12\
---------------------------------------------------------------------------
    \12\ National Congress of American Indians, Policy Research Center, 
Human & Sex Trafficking: Trends and Responses across Indian Country 
(2016), available at http://www.ncai.org/policy-research-center/
research-data/prc-publications/TraffickingBrief.pdf.
---------------------------------------------------------------------------
    Human trafficking also intersects with intimate partner violence in 
a way that can obscure the scope of the problem. According to the 
National Network to End Domestic Violence, ``there is a marked overlap 
in the pattern of behaviors that both abusers and traffickers use to 
exert power and control over a victim. Intimate partner trafficking 
occurs when an abuser `[compels] their partner to engage in commercial 
sex, forced labor, or involuntary servitude.' Alternatively, trafficked 
individuals sometimes live with their trafficker and are subjected to 
the physical violence, emotional manipulation, and overbearing control 
that are hallmarks of domestic violence.''\13\ Domestic and sexual 
violence are crimes that also disproportionately impact AI/AN women. 
The National Institute for Justice has found that 84 percent of AI/AN 
women will experience intimate partner violence, sexual violence, or 
stalking in their lifetime, and 1 in 3 have experienced it in the past 
year.\14\
---------------------------------------------------------------------------
    \13\ The National Network to End Domestic Violence, The 
Intersections of Domestic Violence and Human Trafficking, November 10, 
2017, https://nnedv.org/latest_update/intersections-domestic-violence-
human-trafficking/.
    \14\ Department of Justice, Nat'l Inst. of Justice, Violence 
Against American Indian and Alaska Native Women and Men: 2010 Findings 
from the National Intimate Partner and Sexual Violence Survey 26 (May 
2016), https://www.ncjrs.gov/pdffiles1/nij/249736.pdf.
---------------------------------------------------------------------------
        heightened risk for american indians and alaska natives
    Traffickers prey on persons perceived to be vulnerable.\15\ AI/AN 
women and girls have many of the indicators that increase 
vulnerability, including being relatively young, from a high-poverty 
population, high rates of homelessness and substance abuse, 
exceptionally high rates of past violent victimization, and a lack of 
resources and support services.\16\ An FBI agent involved with 
prosecuting trafficking cases in Anchorage has said that Native women 
are also particularly vulnerable because ``[t]here have been 
traffickers and pimps who specifically target Native girls because they 
feel that they're versatile and they can post them (online) as 
Hawaiian, as Native, as Asian, as you name it.''\17\
---------------------------------------------------------------------------
    \15\ U.S. Department of Justice, Attorney General's Annual Report 
to Congress and Assessment of U.S. Government Activities to Combat 
Trafficking in Persons, Fiscal Year 2015, https://www.justice.gov/
archives/page/file/870826/download.
    \16\ Statement of Tracey Toulou Director of Tribal Justice, U.S. 
Department of Justice, Before the S. Comm. on Indian Affairs, Sept. 27, 
2017, https://www.indian.senate.gov/sites/default/files/upload/
Tracy%20Toulou%20Testimony_0.pdf.
    \17\ ``I can't get my sister back'': Investigators warn of sex 
traffickers targeting Natives, Anchorage Daily News, April 28, 2016, 
https://www.adn.com/rural-alaska/article/i-can-t-get-my-sister-back-
investigators-warn-sex-traffickers-targeting-natives/2010/12/03/.
---------------------------------------------------------------------------
    Compounding these demographic vulnerabilities is the lack of an 
effective law enforcement and criminal justice system in many places. 
Current Federal law limits the authority of Indian nations to fully 
protect victims of crime and respond to crimes of trafficking that 
occur on their lands. Criminal jurisdiction in Indian country is 
divided among Federal, Tribal, and State governments, depending on the 
location of the crime, the type of crime, the race of the perpetrator, 
and the race of the victim. The rules of Tribal jurisdiction were 
created over 200 years of Congressional legislation and Supreme Court 
decisions--and are often referred to as a ``jurisdictional maze.''\18\
---------------------------------------------------------------------------
    \18\ See Robert N. Clinton, Criminal Jurisdiction Over Indian 
Lands: A Journey Through a Jurisdictional Maze, 18 ARIZ. L. REV. 503, 
508-13 (1976).
---------------------------------------------------------------------------
    The complexity of the jurisdictional rules creates significant 
impediments to effective law enforcement in Indian country. Each 
criminal investigation involves a cumbersome procedure to establish who 
has jurisdiction over the case according to the nature of the offense 
committed, the identity of the offender, the identity of the victim, 
and the exact legal status of the land where the crime took place. The 
first law enforcement officials called to the scene are often Tribal 
police or BIA officers, and these officers may initiate investigations 
and/or detain a suspect. Then a decision has to be made--based on the 
race of the individuals involved in the crime, the type of crime 
committed, and the legal status of the land where the crime occurred--
whether the crime is of the type warranting involvement by the FBI or 
State law enforcement.
    Oftentimes answering these questions can be very difficult. Each of 
the three sovereigns has less than full jurisdiction, and the 
consequent need for multiple rounds of investigation often leads to a 
failure to act. Overall, law enforcement in Indian country requires a 
degree of cooperation and mutual reliance between Federal, Tribal, and 
State law enforcement that--while theoretically possible--has proven 
difficult to sustain. As described by Theresa Pouley, former Chief 
Judge at the Tulalip Tribes of Washington, ``The combination of the 
silence that comes from victims who live in fear and a lack of 
accountability by outside jurisdictions to prosecute that crime, you've 
created if you will, the perfect storm . . . which is exactly what all 
of the statistics would bear out.''\19\
---------------------------------------------------------------------------
    \19\ Tribal Justice: Prosecuting non-Natives for sexual assault on 
reservations, PBS NEWS HOUR (Sept. 5, 2015), https://www.pbs.org/
newshour/show/tribal-justice-prosecuting-non-natives-sexual-assault-
indian-reservations.
---------------------------------------------------------------------------
    For over 3 decades before amendments included in the 
reauthorization of the Violence Against Women Act in 2013 (VAWA 2013), 
Tribes did not have jurisdiction over any crimes committed by non-
Indians on their reservations.\20\ In 1978, the Supreme Court ruled in 
Oliphant v. Suquamish that, absent specific direction from Congress, 
Tribal nations do not have jurisdiction over crimes committed by non-
Indians in Indian country.\21\ Congress recognized the impacts of this 
ruling. According to the Senate Committee on Indian Affairs' Report on 
this issue, ``Criminals tend to see Indian reservations and Alaska 
Native villages as places they have free reign, where they can hide 
behind the current ineffectiveness of the judicial system. Without the 
authority to prosecute crimes of violence against women, a cycle of 
violence is perpetuated that allows, and even encourages, criminals to 
act with impunity in Tribal communities and denies Native women 
equality under the law by treating them differently than other women in 
the United States.''\22\ Numerous researchers and policy commissions 
have concluded for decades that jurisdictional complexities in Indian 
country were a part of the problem. And again, Alaska has a uniquely 
complex jurisdictional arrangement and no solution has yet been 
legislated.\23\ As the Ninth Circuit summarized in a 1994 report, 
``Jurisdictional complexities, geographic isolation, and institutional 
resistance impede effective protection of women subjected to violence 
within Indian country.''\24\ Unfortunately, the amendments included in 
VAWA 2013 that created a framework for some tribes to exercise 
jurisdiction over domestic violence crimes are limited in scope and do 
not reach sex trafficking crimes. In the trafficking cases that involve 
a non-Native trafficker--likely the majority of them--all the Tribal 
court can do is banish the trafficker from the reservation or issue a 
civil protection order.
---------------------------------------------------------------------------
    \20\ See, e.g., Angela R. Riley, Crime and Governance in Indian 
country, 63 UCLA L. REV. 1564, 1567 (2016) (discussing the history of 
criminal justice in Indian country, the resulting ``jurisdictional 
maze,'' and the impacts of this maze on Native women).
    \21\ Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978).
    \22\ S. Rep. No. 112-265, at 7 (2012).
    \23\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER, (2013).
    \24\ John C. Coughenour et al., The Effects of Gender in the 
Federal Courts: The Final Report of the Ninth Circuit Gender Bias Task 
Force, 67 S. CAL. L. REV. 745, 906 (1994).
---------------------------------------------------------------------------
    The United States Department of Justice has testified to Congress 
that jurisdictional complexity has made the investigation and 
prosecution of criminal conduct in Indian country very difficult and 
that some violent crimes convictions are thrown into doubt, 
recommending that the energy and resources spent on the jurisdictional 
questions would be better spent on providing tangible public safety 
benefits.\25\ The Indian Law and Order Commission, a bi-partisan 
commission created by the Tribal Law & Order Act of 2010, concluded 
that ``criminal jurisdiction in Indian country is an indefensible 
morass of complex, conflicting, and illogical commands.''\26\ These 
challenges are not unique to trafficking cases, but they undoubtedly 
complicate the justice response and make reservations an attractive 
target for traffickers. Native women as a population are often viewed 
as unprotected prey and the pleas of victims and their families for 
help go unheard. One mother in Alaska, reported:
---------------------------------------------------------------------------
    \25\ Testimony of The Honorable Thomas B. Heffelfinger, U.S. 
Attorney, Minneapolis, Minneapolis, Oversight Hearing before the Senate 
Committee on Indian Affairs on Contemporary Tribal Governments: 
Challenges in Law Enforcement Related to the Rulings of the United 
States Supreme Court, July 11 2002.
    \26\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER, (2013).

``[m]y daughter was and still is a victim of sex trafficked women. I 
reported it to the authorities and received no help. I told them the 
address, location, and names of her traffickers. The Anchorage Police 
Department would not listen to me until I got my two white friends to 
make a call for me. I contacted Priceless Alaska but they would not 
help me unless a State Trooper investigates and makes a referral to 
their organization. No one would help me. I also called the FBI, three 
times, and they did not respond. Through, my two white friends, I 
reported her missing. My daughter was held, by traffickers, at Eagle 
River, Alaska, for 4 months.''--Martina Post, Testimony of the Native 
---------------------------------------------------------------------------
Village of Alakanuk, USDOJ Tribal Consultation, December 6, 2016.

    In Alaska, 28 percent of the youth at Covenant House Alaska were 
survivors of human trafficking and Alaska experiences the most heinous 
cases of sex trafficking in the Nation. Dr. Laura Murphy of Loyola 
University's Modern Slavery Research Project, researched and reported 
that among all the Covenant House sites across the country, Alaska had 
the most brutal cases of sex trafficking--worse than the big, crime-
filled cities of Los Angeles, Detroit, New Orleans and even New 
York.\27\
---------------------------------------------------------------------------
    \27\ Murphy, L.T., (2017) Labor and Sex Trafficking Among Homeless 
Youth, 12.
---------------------------------------------------------------------------
                            federal response
    Investigating and prosecuting trafficking crimes in Tribal 
communities is largely the responsibility of the Federal Government, 
although in some cases the Tribal or State government will have 
concurrent jurisdiction. According to the GAO, there are four Federal 
agencies that investigate or prosecute human trafficking in Indian 
country--the Federal Bureau of Investigation (FBI), the Bureau of 
Indian Affairs (BIA), U.S. Immigration and Customs Enforcement (ICE), 
and the U.S. Attorneys' Offices (USAOs).\28\ GAO reports that the BIA, 
FBI, and USAOs record whether a trafficking case occurred in Indian 
country in their case systems, but ICE does not. None of the Federal 
agencies track whether the victim is Native American or not.\29\ In its 
recent report, the GAO found that from 2013-2016, there were only 14 
Federal investigations, and two Federal prosecutions of human 
trafficking offenses in Indian country.\30\ Given what we know about 
the prevalence of trafficking in Tribal communities and the 
responsibility of the Federal Government to investigate and prosecute 
these crimes, this is extremely concerning.
---------------------------------------------------------------------------
    \28\ Government Accountability Office. (2017). Human Trafficking 
Investigations in Indian Country or Involving Native Americans and 
Actions Needed to Better Report on Victims Served. (GAO Publication No. 
17-762T). Washington, DC: U.S. Government Printing Office.
    \29\ Id. at 14.
    \30\ Id. at 6.
---------------------------------------------------------------------------
    The GAO released a second report in July 2017 examining the extent 
to which local law enforcement agencies or Tribal governments were 
filling the void left by Federal law enforcement agencies investigating 
and prosecuting trafficking cases. The GAO surveyed 203 Tribal law 
enforcement agencies and 86 major city law enforcement agencies. Of the 
132 Tribal law enforcement agencies who responded, 27 of them reported 
that they initiated human trafficking investigations between 2014-2016, 
for a total of 70 investigations involving 58 victims. The GAO asked 
Tribal law enforcement agencies about the number of human trafficking 
investigations they conducted in Indian country. The question posed to 
major city law enforcement agencies differed, however. They were asked 
about the number of human trafficking investigations that involved at 
least one Native American victim. Only 6 of the major city law 
enforcement agencies reported human trafficking cases with at least one 
Native American victim. Those 6 reported a total of 60 investigations 
involving 81 Native American victims from 2014-2016. The Minneapolis 
Police Department reported 49 of the 60 total investigations. GAO 
reported that the Minneapolis Police ``made a concerted effort, 
starting in 2012, to meet with Tribal elders and service providers who 
worked with the Native American population to demonstrate their 
willingness to investigate human trafficking crimes. The officials 
stated that, following those meetings, the number of human trafficking 
crimes involving Native American victims that were reported to the 
department increased.''\31\
---------------------------------------------------------------------------
    \31\ Id. at 10.
---------------------------------------------------------------------------
    GAO reported that Tribal law enforcement agencies believe that 
human trafficking is occurring at a higher rate than is being reported. 
Unsurprisingly, when Tribal law enforcement were asked to identify 
factors that hampered their ability to hold traffickers accountable, 
several themes emerged: (1) Victims are unwilling to cooperate; (2) 
lack of resources, such as necessary training, equipment, and funding 
for sex crime investigations; (3) inter-agency cooperation is absent or 
deficient; and (4) a lack of appropriate laws in place.
                               conclusion
    While human trafficking impacts every community, there is a growing 
awareness and concern that Native women and girls are particularly 
vulnerable and are victims of sex trafficking at an alarming rate. 
There is a particular concern about the relationship between both 
intimate partner violence and the extractive industries and sex 
trafficking. It is important that Congress take action to hold Federal 
officials accountable for their failure to adequately investigate and 
prosecute trafficking crimes in Tribal communities, while also ensuring 
that Tribal governments have the resources and authority that they need 
to address these issues. There are several bills currently pending 
before Congress that would help achieve these goals.
  <bullet> H.R. 6545, the Violence Against Women Reauthorization Act of 
        2018, would amend 25 U.S.C. 1304 to make clear that Tribal 
        courts can hold anyone who traffics American Indians or Alaska 
        Natives in Indian Country accountable for their crimes.
  <bullet> H.R. 4608, the SURVIVE Act, would amend the Victims of Crime 
        Act to ensure that Tribal governments receive a portion of the 
        annual disbursements from the Crime Victims Fund in order to 
        provide services and compensation to trafficking and other 
        crime victims in Tribal communities.
  <bullet> S. 3280, The End Trafficking of Native Americans Act, would 
        establish a joint Department of Justice and Interior Advisory 
        Committee to improve coordination in efforts to address 
        trafficking of Indians and on Indian lands.
    Taken together, these three bills would significantly improve 
access to justice and services for American Indian and Alaska Native 
trafficking victims. I urge you to support these bills. Thank you for 
the opportunity to testify today. Gunalcheesh.

    Ms. McSally. Thank you.
    I now recognize myself for 5 minutes for questions.
    I really appreciate all the verbal and written testimony. 
One thing that was in some of your written testimony that I 
want to highlight and ask a question on, is this deeply 
troubling dynamic of traffickers taking advantage of people who 
are perhaps recovering or suffering from opioid addiction, 
where in some cases I think one of your testimony said is they 
are almost leaving rehab facilities, that they are in a 
vulnerable place to be captured and that their traffickers then 
keep them addicted and then you know, continue to keep them in 
slavery by continuing to provide them the opioids while they 
are trafficking and forcing them into slavery.
    This is deeply disturbing. There is a lot of attention 
lately on the opioid epidemic; this nexus between those that 
are struggling with addiction and those who are now potentially 
vulnerable to being trafficked is deeply disturbing to me.
    So Special Agent Cagen can you share any trends or dynamics 
going on with that or any and any others on the panel? I think 
it is really important for our listeners to understand that.
    Mr. Cagen. Definitely and thank you for bringing that up 
because it is extremely important to us right now. One of the 
things for HSI that is why we are uniquely positioned to target 
trafficking because we also work in the narcotics arena, 
whether it is coming from the transnational criminal 
organizations through the routes into the United States, which 
also brings humans and trafficking victims, we are seeing that 
and that is one of the two things that we are focused on right 
now.
    It is very interesting to talk about it here because we 
also discuss it at a local level with chiefs and sheriffs in 
things like Haida meetings when we are talking about narcotics, 
that we are also talking about how traffickers are you know, 
focused on people that are coming down. What they are doing is 
they are identifying people that are really vulnerable coming 
down off you know, an opioid high, coming out of the facility.
    Ms. McSally. Yes.
    Mr. Cagen. We are also seeing them use opioids with 
vulnerable victims who have never used drugs before----
    Ms. McSally. OK.
    Mr. Cagen [continuing]. Because once they get them hooked. 
It is sad to say but that renewable resource, whether it is 
cartels, mostly criminal gangs within the United States, or 
small lower-level and they just continue to keep them hooked on 
opioids, well they are renewable resource to whatever 
organization or whatever person is trafficking them in these 
horrible situations.
    Ms. McSally. That is disgusting.
    Mr. Gore, do you have anything to add?
    Mr. Gore. Yes. I would like to add something and thank you 
Chairwoman McSally for raising an important question on this 
crucial issue. You are talking about the intersection of the 
civil rights and public health crisis that is human trafficking 
and the opioid epidemic sweeping all across the Nation and 
leaving a wake of destruction behind it.
    We recently had a case, we secured a guilty plea back in 
July involving a man who had used opioid addiction to coerce 
two young women into commercial sex trafficking. He was giving 
them just enough heroin to maintain their addiction and prevent 
withdrawal and then threatening to take their heroin away so 
they would suffer the enormous physical pain of withdrawal if 
they refused to engage in commercial sex trafficking.
    He was from Massachusetts and was taking these women 
throughout New England to engage in coerced commercial sex. He 
was driving down I-95 with the victims and was physically 
abusing one of them in a car when a good samaritan passing by 
noticed this and called the authorities and he was apprehended 
and has now pleaded guilty to these heinous and outrageous 
crimes.
    I think it goes to a point you raised earlier Chairwoman, 
that increasing public awareness on all of these fronts is 
extraordinarily important. Back when the TVPA was enacted there 
wasn't wide-spread public awareness about it, now we have more 
and more wide-spread public awareness and hopefully there will 
be increased public awareness about opioid withdrawal and the 
opioid crisis as well and more people like that good samaritan, 
passerby will speak out when they see indicators of human 
trafficking and other criminal activity.
    Ms. McSally. Great. Thank you.
    Another line, I want to go into maybe more in the second 
round as well is any trends that you all are seeing related to 
traffickers using on-line tools or on-line recruitment or on-
line manipulation to facilitate trafficking. Just in April this 
year the President signed the Allow States and Victims to Fight 
On-line Sex Trafficking Act of 2017 making it a Federal crime 
for websites and bad actors like Backpage.com to facilitate 
illegal prostitution and other things. Are you seeing a trend 
in on-line activity and is this law going to give you 
additional tools, and anything else you can share Mr. Gore?
    Mr. Gore. Yes. Thank you. FOSTA is an extraordinarily 
important tool for law enforcement at the Federal, State, 
local, and Tribal levels. As you laid out it creates liability 
for website operators that knowingly advertise sex trafficking 
or intentionally facilitate prostitution.
    Of course the advent of the internet has led to an 
explosion in human trafficking activity, it has created a new 
market where human trafficking can take place, where supply and 
demand can come together in ways that were not possible before 
and we are seeing that all across the country and really all 
throughout the world so FOSTA is an important tool that 
supplements departments' already existing enforcement authority 
as was shown by the prosecution of Backpage.com in your home 
State of Arizona and it also creates important right-of-action 
for State Attorneys' General to combat human trafficking on-
line and we are actively engaged with State authorities to help 
build their capacity to do so.
    Ms. McSally. OK. Great. I am over my time. I wanted to come 
back to it in a second round.
    But the Chair now recognizes Mr. Vela, the Ranking Member 
for 5 minutes.
    Mr. Vela. Thank all of you again.
    Mr. Cagen, did I get that right? Mr. Gore, this question I 
think is for the two of you and I was wondering if you could 
elaborate on a point you touched on with respect to our levels 
of law enforcement cooperation with Mexican authorities because 
it is something we don't often focus on and you know, in light 
of the indictments and extraditions of ``El Chapo'' Guzman and 
the former Governor of Tamaulipas, Tomas Yarrington which I 
think are success stories that the public doesn't often get to 
hear about and I was wondering if you could elaborate more on 
you know, how those efforts, going forward are important to 
focus on and how they help Mexican authorities help us with 
respect to not only prosecutions of criminals like ``El Chapo'' 
and Tomas Yarrington but in the context of human trafficking?
    Mr. Cagen. Thank you for the question. I won't get into the 
particulars of the bilateral agreement because that is with 
Department of Justice but what I can tell you is I was in 
Mexico, working in Mexico in 2009 when the bilateral agreement 
was signed around and it continues. The continued work between 
our governments is something that is not talked about all that 
often I will agree but we are down there continually. We 
actually have a group, Human Trafficking Unit, in Department of 
Justice's Human Trafficking Unit down there in Mexico City 
meeting with the Mexican government next week in order to talk 
about some cases, some on-going cases, also capacity building.
    We continually, Blue Campaign and ourselves continually 
work, capacity building with the Mexican government but also 
within the Northern Triangle region. It is something that is 
extremely important to us because what we need them to help us 
with is identifying any trafficking that they might see before 
it comes to the United States so by bolstering their capacity 
within the entire region it helps us try to combat this 
problem.
    Mr. Gore. Mr. Cagen's absolutely right. The Bilateral 
Enforcement Initiative has been extraordinarily important both 
to Mexican authorities and to the United States. Mexico remains 
the largest source-country for foreign trafficking victims 
entering the United States. It is a huge problem here, it is 
also a huge problem in Mexico and one of the great innovations 
of the Bilateral Enforcement Initiative is it has allowed us to 
bring high-impact prosecutions that dismantle entire 
trafficking enterprises that operate on both sides of the 
border.
    Frequently what happens in these cases is individuals 
operating in Mexico, lure young women and girls or other 
trafficking victims and then smuggle them into the United 
States where they are coerced into sex trafficking or labor 
trafficking and criminal proceeds are then laundered back to 
Mexico.
    We don't always have the tools or the opportunity or the 
enforcement resources to go after the individuals operating in 
Mexico but the Mexican authorities do and so when we work 
together with them we can dismantle an entire enterprise, take 
it apart, save hundreds of victims, save hundreds more would-be 
victims who never get caught up in that particular enterprise 
so it allows us to leverage our enforcement tools and resources 
for the most effective combating of human trafficking that we 
can do.
    Mr. Vela. I have two quick questions on the same point, the 
first one is for you Mr. Gore, the second one for Mr. Cagen and 
that is, what is your sense given the change of administrations 
in Mexico and how that will affect our cooperative efforts to 
date, will it be enhanced, disrupted, or do you see that it 
will continue the way it has been?
    Mr. Cagen when you talk about capacity, you are talking 
about capacity I believe on the Mexican side and that is one 
thing I have wondered about because I have worked with HSI 
officials that are in Mexico and I am curious about our 
capacity in terms of personnel needs and things like that on 
the HSI side, to keep that process going forward?
    Mr. Gore. Thank you, Ranking Member Vela, for that 
question. I think it is too early to tell if there is going to 
be any change and approach on the Mexican side of this equation 
but we are optimistic and very hopeful that our efforts with 
the Mexican authorities will continue unabated.
    One of the great innovations of the bilateral Enforcement 
Initiative is that we have institutionalized the commitment on 
both sides of the border, both in the United States among our 
law enforcement and also in Mexico among their law enforcement. 
Now the Department has a number of rule-of-law and justice-
reform initiatives in Mexico, we have been able to use those to 
leverage cooperation and assistance in the human trafficking 
sphere and all the teams that we have worked with of career 
prosecutors and investigators in Mexico have been thoroughly 
vetted and are resolutely committed to this effort and have 
been strong partners.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes the Representative from Louisiana, 
Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Special Agent Cagen, how high is the confidence that your 
agents have on a border regarding actual identification of 
people coming across, and I am speaking to ask your response on 
what is the quality level of false documents and 
identifications that you are encountering as we attempt to 
identify people coming into our Nation?
    Mr. Cagen. Thank you for the question. That is a difficult 
question for me to answer. We are the criminal investigative 
arm of the Department and we are not called in until after 
United States Border Patrol or United States----
    Mr. Higgins. Are you seeing false documents and 
identifications and case files that you are investigating----
    Mr. Cagen [continuing]. Yes.
    Mr. Higgins [continuing]. At the investigative level once 
they have been processed in the field?
    Mr. Cagen. Yes.
    Mr. Higgins. What is your opinion of the quality of those 
false documents and identifications?
    Mr. Cagen. That they continue to get better. I have been 
doing it for 18 years, they definitely continue to----
    Mr. Higgins. Roger that. I asked this question because of 
my background in law enforcement. You know, we run across false 
IDs and many years ago, almost a decade ago, we interviewed a 
gentleman with full investigative authority at the felony level 
and he had in his possession over 150 stolen identity files, 
complete files, and he had a connection to make driver's 
licenses that were so close to the real thing, it required 
incredible scrutiny to discern the difference between the 
driver's licenses that this gentlemen who is from Eastern 
Europe was able to create and after hours of interrogation with 
this gentleman we were still not sure who he was. He was 
ultimately deported so this was almost a decade ago.
    You are familiar I am quite sure Mr. Gore with the Equal 
Protection under the law Clause in Section 1 of the 14th 
Amendment to any person on our soil, correct?
    Mr. Gore. Yes. I am.
    Mr. Higgins. Does that right extend to children that enter 
our Nation illegally, accompanied by an adult?
    Mr. Gore. I do believe it does, yes.
    Mr. Higgins. Of course, so as a compassionate nation of law 
and order, in order for a young man or woman that has been 
brought into our Nation for the purpose of human trafficking, 
in order for them to get inserted into the criminal network 
domestically, they have to make it through border security, am 
I correct?
    Whether they are smuggled in or whether they are brought 
in, in plain view, is the nature of this hearing and is it not 
our responsibility to determine who these people are?
    Mr. Gore. Yes.
    Mr. Higgins. Special Agent, yes?
    Mr. Cagen. Yes. It is. I believe that the Customs and 
Border Protection and the U.S. Border Patrol at any ports of 
entry, do everything that they can to identify who these people 
are, whether it is through interviews, using their background 
and knowledge on how to interview people and get people to talk 
to them, I think they do a great job at it.
    Mr. Higgins. I concur. I bring up this subject because Mr. 
Gore, as representatives of the civil rights enforcement, 
essentially for the endeavors that we are discussing today, are 
we not as a nation committed to the unwavering protection of 
the civil rights, of including of illegal aliens that come into 
our Nation illegally because of the clearly stated verbiage of 
our Constitution and the amendments therein, as when they are 
on American soil, they deserve protections under the law, do 
they not?
    Mr. Gore. Absolutely.
    Mr. Higgins. So our very initial objective is quite 
challenging. I think America needs to know this because there 
has been a great deal of discussion about the rights of 
children and we are discussing human trafficking today which by 
its very nature means children so as a young man or woman is 
brought into our Nation perhaps with the criminal intent of 
being inserted into a domestic criminal network of human 
trafficking, it is our absolute duty, Madam Chairwoman, my 
colleagues, to determine exactly who these adults are that are 
accompanying the children.
    I will leave with you, Mr. Hill, tell us what, to close, 
what a challenge that is for us as a nation?
    Mr. Hill. Well, I would just say we have recognized in 
doing the outreach since the Blue Campaign was stood up in 
2010, that this is a huge challenge for us. We appreciate the 
efforts of the Authorization Act that was passed this past year 
because I think it gives us institutional tools to help build 
up the staff that we need.
    Before we had the reauthorization, we were pulling people 
from different departments on details to try to fill this need 
to inform people and so having the act is really going to 
institutionalize this process and get the word out but in 
fiscal year 2017, I believe there were 31,000 unaccompanied 
children that came to this country and so 98 percent of them 
are still here and we need to make sure that those people are 
identified during that process so that the trafficking symptoms 
are not evident with those children.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Correa from California for 5 
minutes.
    Mr. Correa. Thank you, Madam Chair. I want to thank you and 
the Ranking Member for this most important hearing.
    I want to thank our witnesses here today for your service 
to our country.
    You know, human trafficking is a very ugly issue but it is 
one we have to look at head-on. I represent Central Orange 
County, Orange County, California and Mr. Cagen you talked 
about human trafficking, sex slaves, and U.S. citizens. The No. 
1 reason or I should say in our Juvenile Hall in Orange County, 
young ladies, the No. 1 reason the majority of them are there 
for prostitution, under-age young ladies, American citizens.
    Representing Central Orange County, it is a very blue-
collar area, very heavily immigrant, heavily Latino, and also 
very heavily Asian. We have the biggest population 
concentration of Vietnamese outside of Vietnam so I have gone 
out with public safety and I have seen a lot of the human 
trafficking circumstances and situations in my county.
    Central Orange County, we have a lot of workers with and 
without documents and many, many live in my district and then 
they work in Newport Beach, as nannies, and doing other manual 
work.
    I had an employee in Newport Beach called me the other day 
and say, ``I need your help.'' I said, ``What can I do for you 
ma'am? You are out of my district but I will help you.''
    She says, ``A 20-year nanny just got arrested by ICE. Can 
you help me?'' My children are you know, very concerned because 
this is a lady that is bottom up.
    These are the stories I hear over and over again and yet 
today you know, over the last 2 years the administration has 
tightened up immigration policy, granting fewer visas, 
admitting fewer refugees, and really removing thousands of 
legal residents.
    I would ask Mr. Hill, and Ms. Demmert, this is--this is 
going to create a situation of supply and demand. The jobs are 
still there, my Central Valley farmers in California still need 
workers yet less of them are able to come so this is going to 
put a lot of pressure and really going to create more business 
for these smugglers to bring folks into the United States. Am I 
reading this wrong or thoughts on that point?
    Mr. Hill. Well, Representative Correa, thank you for that 
question. I think there is definitely an attempt by the 
administration and specifically the USCIS to evaluate the visa 
process and to make sure that the right number of visas are 
being granted according to the caps that have been instituted 
by Congress.
    So we are fully supportive of immigration reform. We would 
love to see Congress move in some of these areas and we believe 
that that is an important initiative to address but I will say 
to you that we are still getting lots of immigrants into this 
country. Since 2008 we have brought in 11 million immigrants 
into this country and so that is a huge number. I don't know if 
it addresses the labor issue as much but it----
    Mr. Correa. I think that is what I am getting at because we 
can talk the actual numbers, we can talk actual supplying the 
men again when I have folks, farmers in Georgia or in my State, 
the State of California saying, ``We need more workers,'' it 
tells me that there is either a mismatch on the immigrants or 
the right kind of immigrants aren't coming to the United States 
or there is not enough of them.
    Mr. Hill. I think that is one of the reasons why we need to 
move toward requiring things like E-Verify that allows us to 
find out who should be here and make it easier for people that 
want to be getting jobs in America, that are legally here, as 
opposed to these traffickers.
    Mr. Correa. Let me just follow your logic so you want E-
Verify----
    Mr. Hill. Yes.
    Mr. Correa. Then what does that do for the supply----
    Mr. Hill. But it----
    Mr. Correa [continuing]. Of workers because I have talked 
to some of my local you know, farmers in California and they 
have said, ``You do E-Verify and I am out of business.''
    Mr. Hill. Well, either----
    Mr. Correa. And you come to the rescue within 6 months. I 
am going----
    Mr. Hill. OK.
    Mr. Correa [continuing]. Hold that thought and we will talk 
later on because I also wanted to follow Mr. Vela's 
conversation about Mexico and the coordination on the asylum, 
the refugee seekers.
    It is my understanding that Mexican government is doing a 
lot of work in the southern border of Mexico in checking asylum 
refugees and holding back a lot of them in the southern border. 
Do you have any information on that or is there any 
coordination?
    I asked also Ms. Demmert also if you can answer that 
because I believe your part of the world, Alaska, is also an 
area that we do have undocumented coming in, is this an area of 
future challenges for the country in terms of immigration with 
or without documents?
    Ms. Demmert. Well, I think that you always have a problem 
with undocumented individuals coming into areas that lack law 
enforcement, which Alaska really does. You know, 40 percent of 
our communities do not have law enforcement available and so it 
is a prime area for people to come in and not fear the 
consequences.
    In terms of your questions about the labor issue, any time 
you have those vulnerable communities who have a need and need 
to get work they are at risk, they are at most risk for 
trafficking because they are trusting, they are easily sold a 
line and they trust people that they are going to be fair to 
them and then they get trapped into some sort of labor or sex 
trafficking that they cannot get out of.
    I just wanted to quickly add that in terms of Chairwoman 
McSally's point on the opioid issue you know, we also had to 
come from it from a victim-centered point of view in that women 
who are opioid-dependent who use, maybe distribute or possess 
aren't thinking clearly and they fear the consequences of the 
repercussions of being caught with that and being part of that 
and so don't seek help for being trafficked under severe 
conditions of opioid use.
    So figuring out how to provide treatment and also to 
provide some sort of safe haven for them to not be arrested for 
them is also very important.
    Thank you for the question.
    Ms. McSally. Your time----
    Mr. Correa. Madam Chair, I think my time is up.
    Ms. McSally. Has expired.
    Mr. Correa. Thank you very much for your indulgence, thank 
you.
    Ms. McSally. The Chair now recognizes Ms. Demings from 
Florida for 5 minutes.
    Mrs. Demings. Thank you so much Madam Chair.
    Thank you all as well for being here with us today.
    Mr. Gore and Justice Demmert I want to thank you for really 
focusing on the victim and how we can better assist the victim.
    Mr. Gore you talked about the intersection between human 
trafficking, public health, and addiction and I think we all 
can do our jobs better if we approach these issues from a 
holistic standpoint.
    We have also heard about a victim-centered approach and 
victims have to rebuild their lives and often need support to 
do just that so I would like to ask both of you how often do 
you rely on victims because many of them come from very 
challenging environments, how often you rely on victims to 
provide testimony against their trafficker, and how critical 
are victim assistance services in helping victims so that they 
can be effective witnesses that result in prosecution of the 
traffickers?
    Mr. Gore, we will start with you. Thank you.
    Mr. Gore. Thank you for that important question 
Congresswoman Demings because you have hit on an 
extraordinarily important issue which is the survivor-centered 
and trauma-informed approach we try to take in our enforcement 
efforts at the Department of Justice. We use victims as 
witnesses in many, many cases. They are eyewitnesses to what 
they suffered. They are eyewitnesses to the trafficking 
enterprise and its operations. They are eyewitnesses to the 
criminal activity.
    Our first and most important goal is to stabilize and 
support those victims with the services that they need and so 
we do that and then we help them prepare to be witnesses in 
cases that are appropriate.
    We also use victims and survivors to help us improve our 
training. Once they become stabilized and after their cases are 
over, we have had many survivors review our training materials 
and videos to make sure that they are accurately representing 
what goes on in a human trafficking scenario and we have even 
had victims and survivors participate in our trainings both 
internally to the Department of Justice, and of State, local, 
and Tribal law enforcement agencies because they bring a unique 
expertise and experience that we don't have as law-enforcement 
agents and that unique experience and expertise is very vital.
    We could not do our work to answer the last part of your 
question without victim service providers. They are absolutely 
essential and they exist all across the country. They do 
training, they provide support and services to victims. We help 
fund those providers but they go out and they do the very vital 
and important work of actually providing that service where its 
most needed.
    Mrs. Demings. Thank you.
    Justice Demmert.
    Ms. Demmert. Thank you for the question. This is an 
important point that needs to be talked about for sure. Tribal 
governments have been largely left out of the Victims of Crime 
Act of 1984 and as a result of that our victims really have a 
challenge in accessing services in this area.
    We thank the House for what you have all did in the 
Appropriations Act of this year and for the first time we are 
accessing Victims of Crime funding which will just really help 
us with this point.
    However, it is not a permanent fix yet and we really need 
that so we really need the Survive Act to have a consistent, 
reliable, steady stream of funding that we can build programs 
and provide these services.
    The State of Alaska has not been very helpful at all in 
helping victims of crime. Many Tribal communities don't even 
know that there is Crime Victim Compensation available so these 
trafficked individuals they are just you know, they are being 
helped by aunties, uncles, family members, they are not getting 
any real meaningful compensation or assistance and so thank you 
very much, we really hope that the Survive Act or something 
similar will become a permanent fix so we can build these 
programs.
    Mrs. Demings. I know that the Minneapolis Police Department 
have experienced an increase in the number of victims that have 
been referred to them and I believe that it is a result of the 
outreach efforts that have increased or been enhanced, could 
you talk a little bit about those and what you believe could be 
done to further enhance our outreach efforts to reach potential 
victims?
    Ms. Demmert. Well, outreach is really you know, I can't 
speak to Minneapolis obviously but in terms of outreach, the 
problem that we are having in Alaska in particular is that we 
are so under-resourced in terms of law enforcement and judicial 
services because of Public Law 280 we have not had the same 
sort of resources directed to Alaska Tribal communities or 
urban areas and so we have had to rely on State resources and 
the State has not been a friend to Alaskan Native women and 
children who are victims of trafficking.
    We you know, we had a heinous case out of Anchorage this 
last week in which a man who--and forgive me for being so 
candid but who kidnapped a woman, a young Native woman, 
strangled her because that was the only way he could seek 
sexual pleasure, masturbated on her, and then left her in the 
woods.
    He got probation for this act of crimes and so you know, 
that just shows--demonstrates the lack of trust that our 
communities have in a meaningful interaction with law 
enforcement in Alaska and with other State and Federal agencies 
and so the trust in the relationship building really needs to 
be built up in order for that to be effective.
    Thank you for the question.
    Mrs. Demings. Madam Chair, may I ask one additional 
question?
    Ms. McSally. We are going----
    Mrs. Demings. I know I am----
    Ms. McSally. To do----
    Mrs. Demings. Out of time.
    Ms. McSally. A second round if you don't mind.
    Mrs. Demings. OK. Thank you.
    Ms. McSally. If you will yield back.
    Mrs. Demings. I yield back.
    Ms. McSally. OK. Great.
    The gentlelady yields back.
    I appreciate the answers so far. There is just so much to 
talk about related to this issue.
    Special Agent Cagen, the work that you have described as 
HSI. HSI is part of ICE and some of our colleagues and others 
have been calling to abolish that agency completely. I think 
that is a dangerous agenda, can you speak specifically when it 
comes to human trafficking what would happen if you were 
abolished, related to the efforts that are stopping, 
preventing, investigating, and holding people accountable in 
the human trafficking realm?
    Mr. Cagen. I can. Thank you for asking the question. We 
don't agree, special agents in charge in the field and our ERO 
counterparts on the other side from Immigration, we don't 
believe that the abolishment of ICE is something that should 
happen.
    We are a large breadth of authority. We investigate over 
400 laws and a lot of those fall on the Immigration side which 
already inform the criminal side and we believe that we need 
all of those authorities in order to attack a problem like 
this.
    We need the ability to investigate cartel-level 
perpetrators overseas, fall down into a sub-cartel level, and 
then also come down into the local gangs and/or just your local 
neighbor who's involved in trafficking so for us it is 
imperative that we hang on to all of our authorities in order 
to enforce and go after the full scope of the criminal 
network--because we all know that it is not just human 
trafficking or just narcotics trafficking, that we need to be 
able to attack every piece of that network and able to 
dismantle the transnational criminal organization.
    Ms. McSally. Great. Thank you. I agree.
    One of the themes through much of the testimony today is 
the challenge that victims don't understand that they are a 
victim so we can train over a hundred thousand law enforcement 
personnel and those in health care industries and other 
elements, but if a victim doesn't identify themselves as a 
victim for a variety of different reasons that are complex, 
then that still is a pretty significant challenge for us.
    How do we get to that? It is part of the awareness campaign 
I agree for the public, for families, for everyone what we are 
doing here today so that there is a you know, we are able to 
attack the issue of victims thinking that somehow, they are 
consenting to what they are involved in or somehow whatever the 
complex dynamics are so you know, Mr. Hill can you answer to 
that?
    Mr. Hill. Well, I will be glad to take a first crack at it 
for you. Chairwoman, I had the privilege of visiting with the 
Polaris Project recently and they receive some funding from the 
Health and Human Services Administration for a hotline that was 
instituted several years ago. One of the things that I found 
very interesting during that visit is not in addition to the 
work that they are doing and the number of calls that they are 
seeing increased over the last 4 years, they have seen a 100 
percent increase in their calls, they have seen a 130 percent 
increase in the number of cases that they are doing, they are 
also starting to move into this area that you referenced 
earlier in your question about social media----
    Ms. McSally. Yes.
    Mr. Hill [continuing]. And what they are doing is they are 
doing live chat and text messaging because every person who is 
a victim is also carrying a phone and because their person who 
is trafficking them in many cases has to be able to communicate 
with them and so what they are finding is that this new medium 
of outreach is helping to reach an area of the community that 
they hadn't previously been able to and they have seen 
exponential growth in that area.
    So I think the more awareness effort that we continue to 
publish those kind of access numbers and resources, I think we 
are going to continue to see this growth but I think that we 
also have to target some of these populations, the Native 
American and the Indian country, there is a lot of work that 
needs to be done there and so I think we have got to continue 
to go into these areas of vulnerable communities.
    Ms. McSally. Great.
    Special Agent Cagen.
    Mr. Cagen. I would love to answer the question because I 
think it falls in line with Ms. Deming's question as well which 
is, we encounter on the streets through our investigation, 
victims all the time----
    Ms. McSally. Right.
    Mr. Cagen [continuing]. That don't know that they are 
victims. Because of that you asked the question, and thank you 
for asking about victim assistance specialists, it is 
imperative for us as agents for much as I have got a 9-year-old 
daughter, for as much as I want to say that I am a you know, 
kind, gentle, father, after I go in a house and pull a victim 
out I am not then the one that needs to stabilize that victim.
    We need the victim assistance specialist, right next to us 
in the field in order to stabilize that victim initially. Let 
me explain, I have got a 4-State region, Utah, Colorado, 
Montana, and Wyoming for HSI. I have one victim assistance 
specialist. That is why we are asking in the reauthorization of 
the TVPA which I hope you support, to help us bolster, I need 
at least 1 per State. I need somebody next to those agents when 
they pull a victim out of this horrible situation, somebody who 
knows how to do it, somebody who can have that compassion.
    They are never going to see me as compassionate after we 
just broke down the door and pulled them out. I am never going 
to be but my victim assistant specialist for sure is that 
compassionate person.
    So for me, for us in the field, having that specialist to 
let the person know and get them to the point where they know 
they are a victim because at that point they probably still 
don't know they are a victim.
    Ms. McSally. Great. Thanks.
    I am over my time.
    The Chair now recognizes Mrs. Demings from Florida for 5 
minutes.
    Mrs. Demings. Thank you so much Madam Chairwoman. I asked 
permission to submit for the record a statement from the 
American Trucking Association, detailing their work and efforts 
to use their 3\1/2\ million truck drivers as eyes and ears to 
identify and report suspected human trafficking.
    Ms. McSally. Without objection.
    [The information follows:]
Statement of Elisabeth Barna, Chief Operating Officer & Executive Vice 
      President, Industry Affairs, American Trucking Associations
                           September 26, 2018
    Chairwoman McSally, Ranking Member Vela, and Members of the 
distinguished subcommittee, thank you for the opportunity to provide 
testimony on the American Trucking Associations' (ATA) on-going efforts 
to combat human trafficking. ATA was founded in 1933 and is the 
Nation's preeminent organization representing the interests of the U.S. 
trucking industry. Directly and through its affiliated organizations, 
ATA encompasses more than 30,000 companies and every type and class of 
motor carrier operation.
    ATA applauds the efforts of this subcommittee to raise awareness 
about the issue of human trafficking, discuss the important steps being 
taken at the Federal level to end this horrific crime, and determine 
what more should and could be done in that effort.
    In the on-going fight to combat human trafficking, ATA's goal is to 
raise awareness, train our industry on how to recognize human 
trafficking, and intervene when able by safely calling a National 
hotline that alerts law enforcement. The trucking industry is the eyes 
and ears on our Nation's highways, with over 3.5 million professional 
truck drivers. These drivers live in and deliver to every community in 
America. And there are over 7 million people in all employed by the 
trucking industry.
    Whether a travel plaza employee, a pick-up and delivery driver or 
an over-the-road driver, the industry has worked to equip its employees 
with the tools to spot a possible human trafficking case, know what to 
look for and what questions to ask the victim, and how to report it. We 
strongly encourage our drivers and industry employees to make the call 
to let authorities know of a possible case. No call is a bad call and 
that call could save someone's life. To date, our industry has made 
nearly 2,500 calls to the National hotline--which resulted in over 600 
likely human trafficking cases identified--involving over 1,100 
trafficking victims, nearly half of those victims were minors. But, 
unquestionably, there is more work to be done.
    ATA has also empowered America's Road Team Captains to become 
influencers, talking with other drivers through the peer-to-peer 
campaign, to the media and to students and young adults addressing the 
issue and raising critical awareness. America's Road Team Captains are 
a National public outreach program led by a small group of professional 
truck drivers who share superior driving skills, remarkable safety 
records, and a desire to spread the word about safety on the highway. 
Through this continued outreach, our Road Team Captains, drivers, and 
members continue to connect with people throughout the country to 
discuss the horrific crime of human trafficking, recognizing that it 
touches every community and every ethnic and economic background.
    ATA and all 50 affiliated State trucking associations are also 
active partners with Truckers Against Trafficking (TAT), an 
organization established to help empower and mobilize the trucking 
industry in its fight against human trafficking. ATA is a member of the 
TAT Board of Directors, and through that role has helped lead the 
efforts and support the mission of the organization.
    TAT has made substantial progress in spreading awareness of areas 
where human trafficking and the trucking industry intersect. Efforts 
made by TAT and their partners have resulted in increased training of 
drivers, as well as reporting of trafficking incidents. Our industry 
has an estimated 625,000 professional drivers who have been trained by 
TAT to identify and respond safely to possible human trafficking 
incidents they may encounter. Our ATA member companies are adding TAT 
training to not only new employee orientation but to the on-going 
training efforts of their existing employees.
    TAT's Freedom Drivers Project is a mobile exhibit educating 
audiences about the realities of domestic sex trafficking. ATA member 
companies pull the trailer from location to location and help organize 
events in local communities to raise awareness of the crime and how to 
spot a possible crime or more importantly, how to be saved from 
traffickers.
    TAT and ATA also work closely with local communities, including law 
enforcement State-wide and many of the offices of the Attorney General 
or State-wide task forces. TAT has developed law enforcement training, 
equipping law enforcement to target human traffickers and recover 
victims.
    TAT, working in conjunction with ATA and the industry, has many 
resources available, including a certified training program, wallet 
cards, mobile apps, posters for driver work rooms and shipper 
locations, decals letting victims know what they can do, and brochures 
for specific parts of the industry and more. ATA promotes and makes 
these resources available to all industry members.
    ATA is also a partner with the Department of Homeland Security's 
Blue Campaign and has been an active participant in many outreach 
programs within that campaign. The DHS Blue Campaign reaches all modes 
of transportation and helps to leverage partnerships to educate the 
public on how to recognize and report a human trafficking situation. 
The Blue Campaign also has training materials, including training 
videos, which ATA supports and promotes to our membership. ATA has 
partnered with the Blue Campaign on a live webinar discussing the 
trucking industry efforts, and events raising awareness.
    And finally, late last year, ATA convened a roundtable gathering of 
many law enforcement agencies and associations, industry stakeholders 
and leaders in the anti-human trafficking effort. The focus of the 
gathering was an in-depth discussion of how to increase our 
partnerships and resources to combat human trafficking through 
awareness, education, and enforcement, as well as legislative and 
regulatory efforts. The result of the roundtable was a commitment by 
all participants to collaboratively join hands in the continued fight 
against human trafficking. ATA remains extremely committed to this 
endeavor, and will partner or work together with any mode of 
transportation or community to help save lives.
    Thank you for the opportunity to submit comments for the record and 
for your work on ending the practice of human trafficking. I would be 
pleased to answer any questions you may have.

    Mrs. Demings. Thank you.
    I yield back.
    Ms. McSally. All right. You didn't have another question?
    Mrs. Demings. Actually, yes.
    Special Agent Cagen----
    Ms. McSally. OK.
    Mrs. Demings [continuing]. Answered it.
    Ms. McSally. OK. Got it.
    Mrs. Demings. Thank you so much for that.
    Ms. McSally. All right.
    Mr. Cagen. You are welcome.
    Ms. McSally. Well, I appreciate it.
    I just have a few more questions. One is just a question on 
the law, Mr. Gore just to make sure I understand it, 22 U.S.C. 
7102 defines sex trafficking and at the end of it, it says, 
well, sex trial--I will just read the whole thing, ``is the 
recruitment, harboring, transportation, provision, obtaining, 
patronizing or soliciting, of a person for the purpose of 
commercial sex act in which the commercial sex act is induced 
by force, fraud, or coercion, or in which the person induced to 
perform such act has not attained the age of 18 years old.''
    We also have some Federal grants we are trying to 
incentivize States that have laws that basically say if you are 
a child and you are involved in you know, commercial sex 
therefore you are being trafficked, by definition.
    Can you clarify it, does the Federal law say that, if your 
child you know, whether they think they are doing it willingly 
or not they are a child, that equals sex trafficking and how 
does that actually get applied?
    Mr. Gore. Yes. That is absolutely correct Chairwoman. The 
way that human trafficking has been defined under Federal law, 
any minor that goes into commercial sex trafficking is being 
trafficked by definition and that is an important piece of our 
enforcement efforts. We have in the Criminal Division; the 
Child Exploitation and Obscenity Section is responsible for 
enforcing that particular aspect of the Human Trafficking laws. 
It has substantial expertise in child exploitation crimes and 
so it handles those crimes for us as well. But yes, to answer 
your question on the law, that is correct.
    Ms. McSally. So how do you use that tool, is it just the 
traffickers, is it the Johns, I mean, so therefore if you are 
under age you therefore are committing sex trafficking, not 
just illegal you know, these are awful crimes anyway but in 
addition there is another tool, right for a Federal crime?
    Mr. Gore. Absolutely. In all of our human trafficking 
enforcement efforts, we try to go after everybody who is 
involved in the human trafficking, whether it is the 
trafficker, the customer, a hotel owner that is knowingly 
making money off of the trafficking going on in the hotel, 
somebody who is facilitating the trafficking, now as the 
Backpage.com case illustrates and with the tools of FOSTA, we 
can go after websites that are intentionally facilitating 
prostitution or knowingly advertising sex trafficking.
    So we are taking a comprehensive approach and going after 
everybody that we can because we don't want to do this 
piecemeal. We are not going after a one-off criminal here or 
there because that person can be replaced, we want to dismantle 
entire enterprises and take down everybody who is involved in 
this heinous and egregious crime.
    Ms. McSally. Great. Thanks.
    I know it is difficult to quantify the magnitude of the 
trafficking that we don't know about, right that is happening 
under our noses but we have not identified the victims yet or 
the perpetrators but this issue of--again in your written 
testimony the clarity was there, of there is difference between 
smuggling and trafficking, right? People are being smuggled 
across the Southern Border often but people are being 
trafficked from start to finish across the Southern Border.
    People are being trafficked from where they are without 
having to move anywhere but do we have a sense, Special Agent 
Cagen of the magnitude of people who start thinking they are 
being smuggled so they are willing they are willing to and 
trying to move and maybe paying somebody for that, paying their 
cartel for that but they end up being trafficked, if that makes 
sense so that you know, because they either can't pay or then 
they are finding themselves in servitude and you know, forced 
labor or forced sex trafficked--whatever that is so it starts 
off as a smuggling but it ends up in--does that make sense? Do 
we have any sense of the magnitude of that?
    Mr. Cagen. Thank you, Chairwoman. I believe you just 
explained it better than I could. You did explain it extremely 
well. We don't have a number you know, in trafficking we have 
tried for probably the last 18 years to identify the number. We 
don't. We see as HSI, we see it all. That is what makes it 
difficult at the border which is somebody who believes they are 
being smuggled, when we are talking to them either at the 
border for investigative purposes, they believe there being 
smuggled.
    Ms. McSally. Right.
    Mr. Cagen. There is also times that we know they are being 
trafficked because----
    Ms. McSally. Yes.
    Mr. Cagen. Because of an investigation that we have with 
the Mexican government overseas but they still believe that 
they are being smuggled. This creates an extremely difficult 
situation for whether it is CBP at the border----
    Ms. McSally. Yes.
    Mr. Cagen [continuing]. Or our agent so I unfortunately 
don't have a number for you.
    Ms. McSally. But of the cases that you know, say you worked 
on last fiscal year like what is the percentage of cases that 
are like that?
    Mr. Cagen. I don't have that breakdown.
    Ms. McSally. OK.
    Mr. Cagen. I can--I----
    Ms. McSally. OK.
    Mr. Cagen. Definitely can look into that and get back to 
you.
    Ms. McSally. Those are the ones we know about obviously but 
I think this is just an----
    Mr. Cagen. Correct.
    Ms. McSally [continuing]. Important you know, distinction 
for us to understand. Some people are being trafficked from 
start to finish----
    Mr. Cagen. Yes.
    Ms. McSally [continuing]. Others think they are being 
smuggled or start being smuggled and finished being trafficked, 
right? Then they are stuck for a decade, right, either the case 
that you talked about, I mean, some of these are just heinous 
situations.
    Mr. Cagen. Let's also not forget that there are some people 
that pay and are smuggled into the United States and then they 
are here and that is when they are vulnerable----
    Ms. McSally. Right.
    Mr. Cagen [continuing]. And that is when they are 
trafficked so there was zero intent of trafficking the entire 
process----
    Ms. McSally. Right.
    Mr. Cagen [continuing]. Until they were here for some 
time----
    Ms. McSally. And now they are vulnerable.
    Mr. Cagen [continuing]. Now they are vulnerable, they 
utilize you know, ICE and the threat of that in order to keep 
these people down and so they don't talk.
    Ms. McSally. Great. Thank you. OK.
    I really appreciate all the testimony from our experts 
here, the opportunity for us to raise awareness on these 
issues, there is some legislative areas there that we still 
have some more work to do on our part but this is really not 
just a whole-of-Government but a whole-of-society challenge, 
all across law enforcement, all across civil society, faith-
based, private sector, every single community member, family 
member, neighbor, I mean, this is all on us to raise our gaze 
to look at people, each person, each person who serves us, each 
person we come across at a rest stop as we are stopping on a 
family trip, like each person, to do our part, right that if we 
see something we have to say something. So, I appreciate all 
the work that everybody is doing here in order to address this 
scourge.
    We still have more work to do and so thanks for your 
testimony today. I probably have something official to say 
here.
    So yes, the Members of the committee may have some 
additional questions for you and we would ask that you respond 
to those in writing.
    Pursuant to Committee Rule VII(D), the hearing record will 
be held open for 10 days. So without objection, the hearing is 
adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
